<html>
<title> - ESSA IMPLEMENTATION IN STATES AND SCHOOL DISTRICTS: PERSPECTIVES FROM EDUCATION LEADERS</title>
<body><pre>[Senate Hearing 114-731]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-731
 
 ESSA IMPLEMENTATION IN STATES AND SCHOOL DISTRICTS: PERSPECTIVES FROM 
                           EDUCATION LEADERS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

   EXAMINING EVERY STUDENT SUCCEEDS ACT IMPLEMENTATION IN STATES AND 
   SCHOOL DISTRICTS, FOCUSING ON PERSPECTIVES FROM EDUCATION LEADERS

                               __________

                           FEBRUARY 23, 2016

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and Pensions
 
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
      
                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 98-931 PDF                  WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001           
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming            PATTY MURRAY, Washington
RICHARD BURR, North Carolina        BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia             BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky                 ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine                AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska              MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois                 SHELDON WHITEHOUSE, Rhode Island
TIM SCOTT, South Carolina           TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah                CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas                 ELIZABETH WARREN, Massachusetts
BILL CASSIDY, M.D., Louisiana

          

               David P. Cleary, Republican Staff Director

         Lindsey Ward Seidman, Republican Deputy Staff Director

                  Evan Schatz, Minority Staff Director

              John Righter, Minority Deputy Staff Director

                                  (ii)


                            C O N T E N T S

                               __________

                               STATEMENTS

                       TUESDAY, FEBRUARY 23, 2016

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington..     4
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..     6
Kirk, Hon. Mark, a U.S. Senator from the State of Illinois.......     6
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     7
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    43
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    44
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    48
Cassidy, Hon. Bill, a U.S. Senator from the State of Louisiana...    50
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    52

                               Witnesses

Herbert, Hon. Gary R. Herbert, Governor of Utah, Salt Lake City, 
  UT.............................................................     8
    Prepared statement...........................................    10
Weingarten, Randi, President, American Federation of Teachers, 
  AFL-CIO, Washington, DC........................................    13
    Prepared statement...........................................    15
Pringle, Becky, Vice President, National Education Association, 
  Washington, DC.................................................    16
    Prepared statement...........................................    18
Evers, Tony, Ph.D., State Superintendent of Public Instruction, 
  Wisconsin Department of Public Instruction, Madison, WI........    19
    Prepared statement...........................................    21
Schuler, David R., Ph.D., Superintendent of Schools, Township 
  High School District #214, Arlington Heights, IL...............    24
    Prepared statement...........................................    26
Haycock, Kati, President, The Education Trust, Washington, DC....    27
    Prepared statement...........................................    28
Pompa, Delia, Senior Fellow of Education Policy, Migration Policy 
  Institute, Washington, DC......................................    32
    Prepared statement...........................................    34

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    National Governors Association, letter.......................     3
    A Framework of Indicators for School Success, American 
      Federation of Teachers, AFL-CIO............................    46

                                 (iii)

  


 ESSA IMPLEMENTATION IN STATES AND SCHOOL DISTRICTS: PERSPECTIVES FROM 
                           EDUCATION LEADERS

                              ----------                              


                       TUESDAY, FEBRUARY 23, 2016

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Lamar 
Alexander, chairman of the committee, presiding.
    Present: Senators Alexander, Murray, Burr, Kirk, Scott, 
Hatch, Cassidy, Franken, Bennet, Whitehouse, Baldwin, and 
Warren.

                 Opening Statement of Senator Alexander

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    Senator Murray and I will each have an opening statement, 
and then we'll introduce our panel of witnesses. We welcome 
you. After our witnesses' testimony, Senators will have 5 
minutes of questions. I'll ask our witnesses to summarize their 
testimony in 5 minutes, that'll leave us more opportunity for 
discussion.
    In December, the President signed into law the Every 
Student Succeeds Act, a bill to fix No Child Left Behind, which 
Newsweek magazine said was the law that, ``everybody wanted to 
fix.'' The Wall Street Journal then said that the new law was 
the, ``largest devolution of Federal power to the states in a 
quarter century.''
    There was a consensus that this was a law that everybody 
wanted fixed, but there was also a consensus about how to fix 
it, and that was this. Keep the 17 federally required State-
designed tests between grades three and 12 so we can know how 
our children are doing, disaggregate those results and report 
them to the public, but restore back to classroom teachers, 
local school boards, communities, and States the responsibility 
for what to do about the results of those tests.
    The Every Student Succeeds Act very clearly changed the way 
the Department of Education does business. It very clearly put 
States, school districts, principals, teachers, and parents 
back in charge. Gone are the Federal Common Core mandate. Gone 
are what I would call Mother-May-I conditional waivers. Gone 
are the highly qualified teacher definitions and requirements. 
Gone are the Federal teacher evaluation mandates, Federal 
school turnaround models, Federal test-based accountability, 
and adequate yearly progress.
    The Secretary is specifically prohibited from telling 
States how to set academic standards, how to evaluate State 
tests, how to identify and fix low-performing schools, teacher 
evaluation systems, and setting State goals for student 
achievement and graduation rates. But a law that is not 
properly implemented is not worth the paper it's printed on.
    This year, a major priority of this committee will be to 
make sure that this bill is implemented the way Congress wrote 
it. This legislation was truly a bipartisan effort, and I think 
it's fair to say that every single member of this committee 
made some contribution to the final product that was signed by 
President Obama on December 10. Senator Murray was especially a 
leader in this bipartisan result.
    This is a law that 85 out of 100 U.S. Senators voted in 
favor of, and 19 out of 22 members of this committee voted for 
it. It passed the House, and the President signed it, as I 
said, in a White House ceremony in December. The President 
called it a Christmas miracle.
    This is the first of six hearings we will hold this year in 
this committee to make sure that the law is being implemented 
in the way we wrote it. The House of Representatives will do 
the same thing. It looks like we'll have some support in doing 
this.
    The law was written and passed with the support and input 
of a host of organizations that do not always work together, 
that is, Governors, chief State school officers, teachers 
unions, school superintendents, school boards, principals, and 
PTAs. Many of these organizations are represented here today by 
our witnesses.
    In front of each of the members of our committee is a 
letter to the acting Secretary of Education John King, who will 
have his confirmation hearing on Thursday of this week, a 
letter from a coalition of most of these organizations to Dr. 
King. The letter says,

          ``Although our organizations do not always agree, we 
        are unified in our belief that the new law is an 
        historic opportunity to make a world-class 21st Century 
        education system. And we're dedicated to working 
        together at the national level to facilitate 
        partnership among our members and States and districts 
        to guarantee the success of this new law.'' It goes on 
        to say, ``The new law replaces a top-down 
        accountability and testing regime with an inclusive 
        system based on collaborative State and local 
        innovation. For this vision to become a reality, we 
        must work together to closely honor congressional 
        intent. ESSA is clear. Education decisionmaking now 
        rests with States and districts, and the Federal role 
        is to support and inform those decisions.''

    This letter came from the National Governors Association, 
the School Superintendents Association, the National Education 
Association, the American Federation of Teachers, the National 
Conference of State Legislators, the National Association of 
State Boards of Education, the National School Board 
Association, the National Association of Elementary School 
Principals, the National Association of Secondary School 
Principals, the National Teachers Association, and it has the 
support of the Chief State School Officers.
    I will ask consent to place that letter in the record 
following my comments.
    My objectives in the committee will be the same that are in 
this letter, to work together to ensure a timely, fair 
transition to the new law and promote State and local 
decisionmaking. In other words, make sure that what happens is 
what Congress said should happen.
    This coalition and letter are an excellent first step. An 
excellent second step is the President's decision to nominate 
an Education Secretary rather than for us to go a whole year 
without someone confirmed and accountable to the Senate and the 
American people. I said to the President at the signing 
ceremony in December that if he would send us a nominee, this 
Education Committee would have a fair hearing and markup and, 
barring some kind of ethical issue, which we don't expect, work 
to have that person promptly confirmed by the full Senate. The 
President sent his nomination on February 11. We will have our 
hearing with Dr. King this Thursday.
    Then what are the next steps? I addressed the National 
Governors Association on Sunday. I thanked them for their lead 
in helping to pass the bill and for being a part of the 
coalition that will seek to make sure that it's implemented the 
way Congress wrote it. I asked each Governor to form his or her 
own State coalition and include representatives of the national 
coalition: chief State school officers, teachers, principals, 
legislators, school districts, school boards, and parents.
    I said to the Governors that I expect this transfer of 
power from Washington to States, cities, and classrooms will 
unleash a period of innovation and excellence. It will remind 
us that the real path to higher standards is through the 
States, cities, and classrooms, and not through Washington, DC.
    My hope is that the coalition will work together to help 
States develop their new title I and title II plans by July 1, 
2017, next year, so that they can be effective in the 2017-2018 
school year. And my hope is that possibly all this working 
together might actually help put education on the front burner 
and move politics a little bit to the back burner.
    I want to ask those of you who are testifying here today on 
behalf of the seven organizations to communicate this year with 
our committee about how you believe the Department is 
responding. We'd like to know, not just today, but later this 
year your thoughts and feedback. I look forward to the 
discussion today. I look forward to hearing from our witnesses.
    I ask unanimous consent, as I said, to include the 
coalition letter that I mentioned in my testimony.
    [The above referenced material follows:]

                    National Governors Association,
                                         February 10, 2016.

John B. King, Jr., Acting Secretary,
U.S. Department of Education,
400 Maryland Avenue,
Washington, DC 20202.

    Dear Acting Secretary King: On behalf of States, school districts, 
educators and parents, we write to express our strong, shared 
commitment to making the Every Student Succeeds Act (ESSA) a law that 
puts students first. We invite you to work with us to ensure that 
communities determine the best methods of educating our Nation's 
children.
    Although our organizations do not always agree, we are unified in 
our belief that ESSA is a historic opportunity to make a world-class 
21st century education system. We are dedicated to working together at 
the national level to facilitate partnership among our members in 
States and districts to guarantee the success of this new law.
    ESSA replaces a top-down accountability and testing regime with an 
inclusive system based on collaborative State and local innovation. For 
this vision to become a reality, we must work together to closely honor 
congressional intent. ESSA is clear: Education decisionmaking now rests 
with States and districts, and the Federal role is to support and 
inform those decisions.
    In the coming months, our coalition--the State and Local ESSA 
Implementation Network--will:

    <bullet> Work together to ensure a timely, fair transition to ESSA;
    <bullet> Coordinate ESSA implementation by Governors, State 
superintendents, school boards, State legislators, local 
superintendents, educators and parents;
    <bullet> Promote State, local and school decisionmaking during 
implementation; and
    <bullet> Collaborate with a broader group of education stakeholders 
to provide guidance to the Federal Government on key implementation 
issues.

    In ESSA, Congress recognizes States and schools as well-suited to 
provide a high-quality education to every child, regardless of their 
background. We have long prioritized lifting up those students who need 
help the most and our members stand ready to continue this work.
    Our organizations look forward to a cooperative, collaborative and 
productive relationship with you and your staff throughout the 
implementation process.
            Sincerely,
    Scott D. Pattison, Executive Director/CEO, National Governors 
Association; William T. Pound, Executive Director, National Conference 
of State Legislatures; Kristen J. Amundson, Executive Director, 
National Association of State Boards of Education; Daniel A. Domenech, 
Executive Director, AASA: The School Superintendents Association; JoAnn 
D. Bartoletti, Executive Director, National Association of Secondary 
School Principals; Lily Eskelsen Garcia, President, National Education 
Association; Thomas J. Gentzel, Executive Director, National School 
Boards Association; Gail Connelly, Executive Director, National 
Association of Elementary School Principals; Randi Weingarten, 
President, American Federation of Teachers; Laura M. Bay, President, 
National PTA.

    The Chairman. Senator Murray.

                      Statement of Senator Murray

    Senator Murray. Thank you very much, Chairman Alexander, 
and I really appreciate all of our witnesses taking the time to 
be here with us today.
    At this time last year, Chairman Alexander and I were just 
starting out on our bipartisan effort to fix No Child Left 
Behind. We both agreed--in fact, everyone in the country 
agreed--that the current law was badly broken. So we did work 
together, along with our colleagues in this committee and our 
counterparts in the House, Chairman Kline and Ranking Member 
Scott. I am really proud that we were able to break through the 
partisan gridlock in Congress and find common ground and pass 
the Every Student Succeeds Act with very strong bipartisan 
support.
    Throughout our work, I fought hard for my State priorities, 
Washington State priorities, because last year, I heard from so 
many people, including a woman named Lillian who lives in 
Shoreline, WA. When her son was going to the fourth grade, 
Lillian got a letter in the mail 2 weeks before classes started 
describing her school as failing.
    Those letters home to parents were a consequence of 
Washington State losing its waiver from the No Child Left 
Behind's burdensome requirements. Lillian said it left her and 
parents worried about the type of education her son was 
getting. Now that our new law is on the books, I am committed 
to making sure that parents like Lillian, teachers, schools, 
and especially our students in my home State and across the 
country get what they need.
    Here's what our law does. The Every Student Succeeds Act 
gives States more flexibility, but it also includes strong 
Federal guardrails for States as they design their 
accountability systems. It preserves the Department's role to 
implement and enforce the law's Federal requirements and 
reduces reliance on high-stakes testing, and it makes 
significant new investments to improve and expand access to 
preschool for our Nation's youngest learners, to name just a 
few provisions of the law.
    Now and in the coming months, this law will go from 
legislative text to action steps as the Department of Education 
and States get to work to carry it out. While the Department 
goes through this process and as States develop their new 
systems and policies, I will be closely monitoring several 
issues to make sure our law lives up to its intent to provide 
all students with a high-quality education.
    As I mentioned, Washington State saw firsthand how broken 
No Child Left Behind really was, especially when our State lost 
its waiver. I was glad the Department announced last month that 
during the transition to the new law in this upcoming school 
year, school districts in Washington State will no longer be 
required to send those failing school letters home to parents 
like the one Lillian got. And our State will regain funding 
flexibility to better target effective services to students 
most in need. That is the first of what I hope will be many 
positive steps to make sure our Nation's primary, elementary, 
and secondary education law works for Washington State, 
students, parents, teachers, and communities.
    Earlier this year, the Department received nearly 370 
comments from groups across the country. Those comments made 
clear that stakeholders need more clarity in the form of 
regulations and guidance to implement the law effectively. Many 
stakeholders requested the Department define vague terms and 
set broad parameters in key areas like assessments, 
accountability, school supports, and interventions, and I hope 
the Department will provide this much needed clarity.
    I also expect the Department to use its full authority 
under the Every Student Succeeds Act to hold schools and States 
accountable for offering a quality education. That means, among 
other things, making sure States have meaningful accountability 
systems and enforcing the State level cap on the use of 
simplified alternate assessments for students with 
disabilities.
    I'll be taking a close look at any guidance or regulations 
from the Department for school interventions and supports which 
will be critical to helping our low-performing schools improve. 
I also want to make sure the Department carries out the law's 
provisions that will help reduce reliance on redundant and 
unnecessary testing.
    Finally, I will continue to be very focused on the 
competitive grant program to expand access to high-quality 
preschool. That means the Department of Health and Human 
Services should work closely with the Department of Education 
so many students get the chance to start kindergarten ready to 
learn.
    At its heart, the Nation's primary, elementary, and 
secondary education law is a civil rights law, and it's up to 
all of us to uphold that legacy and promise for students, 
including many of the groups represented here today from 
advocacy groups to school officials at the State and local 
level. And I look forward to hearing from each of you today on 
how we can make sure this law provides a good education for 
every child. Thank you again for being here.
    The Chairman. Thank you, Senator Murray.
    I want to welcome our seven witnesses. Each has a 
distinguished resume. For those that I will introduce, I'm 
going to keep it short so that we can spend more time visiting 
with you.
    The first witness is the Governor of Utah, Governor Gary 
Herbert. He is also the current chair of the National Governors 
Association, and over the weekend, they met here. They met with 
President Obama. I met with them as well, as did other 
Senators, and they talked about the State coalitions that they 
would form to help implement the law.
    Our second witness is Ms. Randi Weingarten. She is the 
president of the American Federation of Teachers, which 
represents 1.6 million members nationwide. Washington Life 
magazine included Ms. Weingarten on its 2013 Power 100 List of 
Influential Leaders.
    Our third witness is Ms. Becky Pringle. She is the vice 
president of the National Education Association, the Nation's 
largest labor union and professional association for educators 
with 3 million members. Ms. Pringle has 31 years of teaching 
experience as a middle school science teacher.
    Senator Baldwin will introduce our fourth witness.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman. I'm pleased to 
welcome Dr. Tony Evers to the committee. He is currently 
serving his second term as Wisconsin's State Superintendent of 
Public Instruction. He began his career in 1976 in the city of 
Tomah and has served students, parents, educators, and citizens 
for four decades, serving as a principal, school district 
administrator, educational service agency administrator, deputy 
State superintendent, and now State superintendent. He also 
currently serves as president of the Council of Chief State 
School Officers.
    Tony, we're very pleased to have you here and look forward 
to your testimony.
    The Chairman. Thank you, Senator Baldwin.
    Senator Kirk will introduce our fifth witness.

                       Statement of Senator Kirk

    Senator Kirk. Thank you, Mr. Chairman. I would like to 
introduce Dr. David Schuler, who is here from Arlington 
Heights, IL, District 214. When I was a Congressman, I dealt a 
lot with District 214. It had an outstanding data analysis 
effort, the best team in the State, I would say. I'm very 
excited to hear from Dr. Schuler, the president of the American 
Association of School Administrators.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Kirk.
    Last, we will hear from Ms. Delia Pompa, who is Senior 
Fellow for--no, Kati Haycock is next. Excuse me, Kati.
    Ms. Haycock serves as president of the Education Trust in 
Washington, DC, a national nonprofit advocacy organization 
working to help improve student achievement.
    Kati, welcome.
    Ms. Delia Pompa is Senior Fellow for Education Policy at 
the Migration Policy Institute. Her research is focused on 
immigrant students and English learners.
    Senator Hatch, I briefly introduced Governor Herbert before 
you came, and he'll be our first witness. But if you'd like to 
make other comments about him, you're certainly welcome to.

                       Statement of Senator Hatch

    Senator Hatch. Thank you, Mr. Chairman. I appreciate your 
recognition.
    Seeing all of you here today, I can't help but be reminded 
of what a truly bipartisan accomplishment this committee has 
achieved. It's a pleasure to be with you, and I feel especially 
grateful to be here with a true statesman and a dear friend, 
Governor Gary Herbert of Utah.
    As the chair of the National Governors Association, 
Governor Herbert was indispensable in our efforts to advance 
ESSA. In fact, thanks to his advocacy, the National Governors 
Association fully endorsed this critical legislation last fall. 
This was the organization's first full endorsement in nearly 20 
years. Governors across the Nation recognized that the 
expansive Federal footprint in education created by No Child 
Left Behind and the subsequent waivers from the law severely 
dampened States' ability to innovate, improve, and adapt.
    I know Utah has been waiting a long time to say goodbye to 
these top-down policies, and I look forward to working together 
to ensure that implementation of ESSA is consistent with the 
law the President signed.
    Governors have a direct and real investment in the 
educational outcomes of their States. Through education, we can 
fight intergenerational poverty and jump start economic growth. 
I commend my home State of Utah for its proven record of 
finding new and targeted ways to improve education outcomes.
    Much of that credit has to go to Governor Herbert. His work 
in education has been truly exemplary. For example, Governor 
Herbert recently worked with leading aerospace companies in 
Utah to create the Utah Aerospace Pathways Program. This 
program allows high school students to graduate high school 
with an aerospace manufacturing certificate which they can use 
to continue their education or find a job. This program has 
garnered so much interest that it has spurred a diesel fuel 
sister program to rapidly address another emerging need in our 
State of Utah. Programs such as these equip graduates with the 
21st Century skills they need to compete in a global economy.
    ESSA will continue to cultivate this innovation at the 
State level and, in particular, initiatives such as the 
Evidence Innovation and Research Program, and those allowable 
under the flexible title IV block grant are purposely designed 
to allow thought leaders to expand upon evidence-based, locally 
grown initiatives.
    Like many of you, I believe these States should set their 
own standards and judge their schools according to student 
performance. When the schools fail to meet those standards, 
States and localities should work with the schools to develop 
new strategies that promote student success. That's an absolute 
must. But it should be the role of the State and district, not 
the Federal Government, to intervene and determine how to help 
schools improve. Federal top-down policies, though they may be 
well intentioned, often overlook the unique tools and 
strategies that States already have to solve the problems at 
hand.
    You are all the ones who are directly involved and 
responsible for carrying out this law, and we look to you for 
guidance. And, in particular, Governor Herbert has set an 
example in this country in many ways, and Utah has been very, 
very blessed because of his leadership. I'm very happy to 
introduce him here this morning as a personal friend and a 
very, very wonderful Governor.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hatch.
    Now I'll ask the witnesses if you could summarize your 
comments in about 5 minutes. We have several Senators who would 
like to ask questions. Let's begin with Governor Herbert and 
we'll go right down the line.
    Governor Herbert.

STATEMENT OF HON. GARY R. HERBERT, GOVERNOR OF UTAH, SALT LAKE 
                            CITY, UT

    Governor Herbert. Thank you, and thank you, Senator Hatch, 
for those kind words. It's an honor to be with you here.
    Chairman Alexander, Ranking Member Murray, members of the 
committee, thank you for inviting me to testify today on behalf 
of the National Governors Association and the people of Utah.
    Replacing No Child Left Behind was the Governors' top 
priority in 2015. Thank you for listening and returning 
education decisions back to the States. Now, through its 
implementation, States must make the promise of the Every 
Student Succeeds Act a reality. As chair of the NGA and on 
behalf of Governors, let me assure you that we are up to the 
task.
    Let me begin with several key points. The Governors' formal 
endorsement of ESSA, our first of any Federal legislation in 20 
years, is a testament to how closely Congress adhered to the 
Governors' plan to replace No Child Left Behind and is a model 
for a process of what Federal lawmaking should be, a floor but 
not a ceiling.
    Governors view ESSA as an opportunity for States to set 
high but realistic expectations for schools while allowing 
local control to determine how to meet those expectations. 
Governors also believe that collaboration is essential and plan 
to facilitate partnership among education stakeholders at the 
national, State, and local levels. ESSA's success will 
ultimately be determined by how well we implement the law 
working together.
    Over the last 4 days, Governors have been here in 
Washington discussing how to use this as an opportunity to 
truly innovate. As the laboratories of democracy, States intend 
to fully utilize the flexibility given under the current law. 
ESSA recognizes the Governors' role at the helm of State 
education systems by guaranteeing their involvement in 
development of the State plan and throughout the ongoing 
administration of the law. As States now assume more 
responsibility and authority over their education systems, 
Governors will use their role to elevate the importance of this 
law to address our most pressing education needs.
    ESSA takes Federal education policy from a siloed, one-
dimensional system to one that recognizes what States knew long 
ago, that a high-quality education begins at early childhood 
and continues into the workforce. It acknowledges the growing 
bipartisan awareness of early childhood education in State 
capitals across the country by weaving early childhood 
education throughout the law.
    As Congress and the administration moves forward with ESSA 
implementation, I encourage you to look to the States to 
understand the breakthroughs that are possible with a 
collaborative State-Federal partnership. In Utah, we have 
proven that business and education can work together to help 
fill critical talent demands. Senator Hatch has mentioned 
Utah's Aerospace Pathways Program. Spearheaded by companies 
like Boeing, it is a stackable credential model that is 
addressing the State's unique workforce needs.
    Governors also view education as a critical tool to lift up 
students out of poverty and place them on a path to economic 
success. States and Governors will continue to prioritize a 
high-quality education for all students. But we will best 
accomplish this through State solutions.
    In Utah, addressing intergenerational poverty is a 
cornerstone of our agenda. To improve the academic performance 
of students from low-income families, we are increasing 
enrollment in full day kindergarten, and we're making sure that 
low-income schools employ high-quality teachers. We're also 
working to dramatically increase graduation rates for low-
income students, like our work with Roy High School in northern 
Utah to increase their graduation rates from 77 percent to 84 
percent while also cutting the school's chronic absenteeism in 
half.
    Utah believes that too many brilliant young minds are too 
often lost in poverty. Those young minds represent human 
capital, capital that, if we tap into it, will empower their 
families to succeed, enable them to escape poverty, and, in 
turn, allow our economy to flourish like never before. ESSA is 
a tool for States to support important efforts like these.
    ESSA implementation will be the Governors' top Federal 
priority in the coming months. We plan to engage early and 
often to ensure the Federal Government adheres closely to the 
following principles. One, as the leader of each State's 
education system, Governors should be consulted for substantive 
input throughout the implementation process. Two, gentle 
guidance should be the primary tool the Federal Government uses 
to help with State implementation efforts. Three, any 
regulations should reflect congressional intent and be 
promulgated only for sections of the law where States and 
school districts agree that additional context is necessary. 
And, fourth, the Federal Government should allow a flexible 
timeline for State and local implementation.
    Ultimately, ESSA is built on the potential of State 
solutions and local control. We look forward to focusing those 
solutions on preparing students for the high-skill careers of 
the 21st Century and a productive life.
    On behalf of the Nation's Governors, Mr. Chairman, thank 
you for the opportunity to testify.
    [The prepared statement of Governor Herbert follows:]

          Prepared Statement of The Honorable Gary R. Herbert

    Chairman Alexander, Ranking Member Murray and members of the Senate 
Health, Education, Labor, and Pensions Committee, thank you for 
inviting me to testify today on behalf of the National Governors 
Association (NGA) and the people of Utah.
    Governors made replacing an unworkable Federal education law our 
top priority in 2015. Congress listened and returned education 
decisionmaking back to the States. Now, through implementation, States 
must make the promise of the Every Student Succeeds Act (ESSA) a 
reality.
    As Chair of NGA and on behalf of Governors, let me assure you that 
we are up to the task.
    Let me begin with several key points:

    <bullet> Governors' endorsement of ESSA, our first of any Federal 
legislation in 20 years, is a testament to how closely Congress adhered 
to long-standing NGA priorities and the Governors' plan to reauthorize 
ESEA.\1\
---------------------------------------------------------------------------
    \1\ NGA-National Conference of State Legislatures Plan to 
Reauthorize the Elementary and Secondary Education Act. Web. 12 Feb. 
2016. <http://www.nga.org/files/live/sites/NGA/files/pdf/2015/
ESEAGovernorsAndStateLegislaturesPlan.pdf>.
---------------------------------------------------------------------------
    <bullet> ESSA is a model for what every Federal law should be: a 
floor, not a ceiling. It proves that bipartisan, bicameral creativity 
and compromise can still produce pragmatic solutions that equip States, 
schools, and teachers to improve the lives of students who need help 
the most.
    <bullet> Governors view ESSA as an opportunity for States to set 
high--but realistic--expectations for schools while allowing them to 
determine how to meet those expectations.
    <bullet> Governors believe that collaboration is essential and plan 
to facilitate partnerships among education stakeholders at the 
national, State and local levels to guarantee the success of this new 
law.
    <bullet> Over the last 4 days, Governors have been here in 
Washington discussing how we will truly innovate under ESSA. As the 
laboratories of democracy, States intend to fully utilize the 
flexibility to innovate under this new law.
                            the road to essa
    Long before the Nation at Risk report first revealed shortcomings 
in our Nation's education system, Governors understood that a thriving 
State economy and successful lives for citizens could only be realized 
by elevating the quality of schools in every community. The Federal 
Government's response that report built on the leadership of education 
Governors and, together, they turned a time of education challenges 
into a time for results.
    In 1989, at an historic summit in Charlottesville, Governors and 
the President of the United States, for the first time, proclaimed 
education an issue of national concern. They agreed that it was States 
who must take the lead to improve education, while the Federal 
Government's role was to support and inform their efforts. One 
Governor, quoting Winston Churchill, called the summit ``the beginning 
of a new beginning.'' \2\
---------------------------------------------------------------------------
    \2\ 150 Cong. Rec. 11451 (2004).
---------------------------------------------------------------------------
    Twenty-six years later, after many lessons learned, ESSA again 
represents a ``new beginning.'' The new law embodies the spirit of that 
summit by recognizing that improving student performance should be 
paramount, but collaborative State and local solutions should guide 
that improvement, not the Federal Government.
                   governors supporting collaboration
    Since the beginning of 2016, 40 Governors have given State of the 
State addresses and all have spoken about the importance of a high-
quality education. In fact, Governors' reference their bold plans for 
the future of education more than 450 times in those addresses--more 
than any other policy area by a wide margin.\3\ Expenditures for K-12 
education account for one-third of State budgets and Governors continue 
to prioritize increasing that percentage in 2016 by proposing new 
initiatives from teacher salary increases to resources to boost 
computer science education.\4\
---------------------------------------------------------------------------
    \3\ 2016 Governors' State of the State Addresses Information. Web. 
12 Feb. 2016. <http://www.nga.org/cms/home/special/col2-content/2016-
state-of-the-state-dates.html>.
    \4\ Fiscal Survey of States, Spring 2015. National Association of 
State Budget Officers. Web. 12 Feb. 2016. <http://www.nasbo.org/
publications-data/fiscal-survey-states/fiscal-survey-states-spring-
2015>.
---------------------------------------------------------------------------
    ESSA recognizes Governors' role at the helm of State education 
systems by guaranteeing their involvement in development of the State 
plan and throughout the ongoing administration of the law.\5\ As States 
now assume more responsibility and authority over their education 
systems, Governors will use their role to elevate the importance of 
ESSA to address our most pressing education needs.
---------------------------------------------------------------------------
    \5\ Heller, Dean. Heller-Manchin Amendment to Every Child Achieves 
Act Passes Senate. Web. 12 Feb. 2016.<http://www.heller.senate.gov/
public/index.cfm/pressreleases?ID=865cbe76-2227-4b3e-bc46-
0afe5f0cab63>.
---------------------------------------------------------------------------
    Strong collaboration at the State level is in the best interest of 
students, parents and educators in every State and we look forward to 
ensuring their voices are heard from the beginning. ESSA's success will 
ultimately be determined by how well we implement the law together. The 
State and Local ESSA Implementation Network \6\ will not only allow 
Governors to partner with teachers, principals, parents and State 
legislators to guarantee smooth implementation at the Federal level, 
but it will lay a foundation for similar coalitions to emerge in each 
State.
---------------------------------------------------------------------------
    \6\ ``Every Student Succeeds.'' Letter to John King. 10 Feb. 2016. 
Web. <http://www.ncsl.org/documents/statefed/
ESSA_ImplementationNetwork.pdf>.
---------------------------------------------------------------------------
                  strengthening the education pipeline
    ESSA's new emphasis on collaboration and gubernatorial involvement 
allows for unprecedented alignment and coordination across the 
education pipeline. Governors are connecting K-12 education with early 
childhood education, postsecondary education and the workforce training 
system to meet the current and future needs of their State's economy.
    ESSA evolves Federal education policy from a siloed, one-
dimensional system to one that recognizes what States knew long ago--a 
high-quality education begins at early childhood and continues into the 
workforce.
    The growing recognition of early childhood education's importance 
is happening in communities and State capitols across the country, and 
with policymakers on both sides of the aisle. Last year was the fourth 
consecutive year that State early childhood education programs have 
expanded.\7\ This year, Governors and State legislatures in 45 States 
will invest nearly $7 billion State dollars in preschool programs.\8\
---------------------------------------------------------------------------
    \7\ State Pre-K Funding for 2015-16 Fiscal Year: National trends in 
State preschool funding. Education Commission of the States. Web. 12 
Feb. 2016. <http://www.ecs.org/ec-content/uploads/01252016_Prek-
K_Funding_report-4.pdf>.
    \8\ Ibid.
---------------------------------------------------------------------------
    ESSA acknowledges this work by establishing the Preschool 
Development Grants program in law, allowing States the flexibility to 
use these funds for targeted student populations and programs designed 
to meet community-specific needs, such as Utah's work with children 
caught in intergenerational poverty. Governors are now able to 
leverage: title I dollars for student's transition from preschool and 
kindergarten to elementary school, Title II dollars to prepare and 
develop early childhood leaders and educators, and title III dollars to 
begin addressing the English proficiency for dual language learners in 
preschool.
    ESSA also fosters alignment with the workforce development system 
by making certain that State accountability systems take into account 
Governors' workforce development plans required under the Workforce 
Innovation and Opportunity Act (WIOA). School districts are now able to 
utilize ESSA funds for classes leading to industry-recognized 
credentials and career counseling. These new flexibilities will help 
Governors take education and workforce coordination to the next level.
    In Utah, we have proven that business and education can work 
together to help fill critical talent demands. The Utah Aerospace 
Pathways, spearheaded by Boeing and other aerospace companies in Utah, 
partners K-12 with vocational schools and Salt Lake Community College 
to create a true ``stackable credential'' model that is addressing 
short-term industry workforce needs. The program has been so successful 
that even U.S. News and World Report took notice.\9\
---------------------------------------------------------------------------
    \9\ Aerospace Program to Give Utah High-Schoolers Path into 
Industry. U.S. News and World Report. Web. 12 Feb. 2016. <http://
www.usnews.com/news/stem-solutions/articles/2015/09/15/aerospace-
program-to-give-utah-high-schoolers-path-into-industry?page=2>.
---------------------------------------------------------------------------
          high expectations for states, students and educators
    This year, as Chair of NGA, I am highlighting Governors' innovative 
solutions to today's most pressing problems. As Congress and the 
Administration moves forward with ESSA implementation, I encourage you 
to look to the States to understand the breakthroughs possible through 
a collaborative state-Federal partnership.
Testing
    In Virginia, Governor McAuliffe assembled a diverse coalition of 
school board members, teachers and parents that re-designed how 
assessments results are used, introduced new innovative forms of 
assessment and eliminated 5 unnecessary statewide exams. Governor 
McAuliffe's experience and a dozen other similar efforts across the 
country can guide the U.S. Department of Education's implementation of 
ESSA's innovative testing pilot, expanded forms of assessment and 
flexibility to reduce high school testing.
Educator Quality
    In Tennessee, Governor Haslam listened to educators and worked with 
them to adjust their statewide educator evaluation system's reliance on 
math and English exams and to allow districts to determine how to use 
evaluation results to support teacher development. As the Federal 
Government gets out of the teacher evaluation business, Tennessee's 
collaboration can inform States and the Federal Government as they 
determine how to move forward with teacher evaluations.
School Improvement
    Governors recognize that a low-performing school threatens the 
future well-being of their citizens and the stability of State 
economies. Accordingly, they are taking ownership of the process to 
guide those schools back to excellence. Under No Child Left Behind, 
States could only choose from four strategies to improve schools in 
more than 14,000 school districts across the country.\10\ Under ESSA, 
States are now in the driver's seat working with districts to determine 
evidence-based models that will produce results in the Nation's lowest-
performing schools.
---------------------------------------------------------------------------
    \10\ School Districts. United States Census Bureau. Web. 12 Feb. 
2016. <https://www.census.gov/did/www/schooldistricts/>.
---------------------------------------------------------------------------
    The Federal Government could look to Connecticut Governor Malloy's 
statewide network to engage schools in an intensive turnaround process 
guided by teachers and parents. A school's success under this system is 
not an afterthought; it is celebrated as an event that will change the 
lives and futures of children in their community.
Improving Graduation Rates
    Utah is leading efforts to dramatically increase graduation rates. 
Two years ago, our legislature helped northern Utah's Roy High School 
take a new approach to improving the school's persistently low 
graduation rates. District leaders made Roy High's graduation rate an 
outcome of student success at all of the elementary and middle schools 
sending students to the high school. Student performance throughout 
these schools was disaggregated and the results were discussed with 
parents, educators and the local community.
    The outcomes of this innovative program are impressive. Roy High's 
graduation rates increased from 77 percent to 84 percent, chronic 
absenteeism was cut in half from 29 percent to 14 percent and 
enrollment and completion rates in Advanced Placement/dual enrollment 
courses jumped by 19-24 percent.
    The success of this project underscores the effectiveness of a 
model in which struggling students and their families are provided 
additional support--as opposed to the No Child Left Behind model 
consisting of varying degrees of punitive consequences. It also 
reinforces the fact that when resources are provided at the local 
level, communities are capable of finding solutions.
State-Led Accountability
    Governors view education as a critical tool to lift up students out 
of poverty and place them on a path to successful lives. The top-down 
accountability and testing regime of NCLB and a commitment to assisting 
those students that need help the most are not a package deal. States 
and Governors will continue to prioritize a high-quality education for 
all students--but we will accomplish this through State solutions.
    In Utah, addressing intergenerational poverty is a cornerstone of 
our agenda. It is clear that this problem cannot be solved at the 
Federal level, and even at the State level we've learned that we must 
work closely with counties, cities, school districts and schools to 
build coordinated health, education, workforce and human services 
strategies that work for their unique populations.
    To improve the academic performance of students from these low-
income families, we're increasing enrollment in full-day kindergarten, 
we're making sure that low-income schools employ high-quality teachers 
and we're implementing programs to increase the graduation rate for all 
low-income students.\11\
---------------------------------------------------------------------------
    \11\ Utah's Plan for a Stronger Future: Five-and Ten-Year Plan to 
Address Intergenerational Poverty. Utah Intergenerational Welfare 
Reform Commission. Web. 12 Feb. 2016. <https://jobs.utah.gov/edo/
intergenerational/igp5--10yearplan.pdf>.
---------------------------------------------------------------------------
    Utah believes in the potential of the many brilliant young minds 
often lost in poverty. Those young minds represent human capital. 
Capital that, if we tap into it, will empower their families to 
succeed, equip them to escape poverty and, in turn, allow our economy 
to flourish like never before.
    ESSA is a tool for States to support efforts like these; not to 
back down from them.
                       conclusion and next steps
    ESSA implementation will be Governors' top Federal priority in the 
coming months and years. We plan to engage early and often to ensure 
the U.S. Department of Education adheres closely to the following 
principles:

    <bullet> As the leader of each State's education system and the 
official responsible for creating lifelong learning from early 
childhood into the workforce, Governors should be consulted for 
substantive input throughout the ESSA implementation process;
    <bullet> Guidance should be the primary tool the Federal Government 
uses to inform State efforts to implement ESSA;
    <bullet> Regulations should reflect congressional intent and be 
promulgated only for sections of ESSA where States, districts and the 
Federal Government agree additional context is necessary;
    Federal agencies should recognize ESSA's alignment of Federal K-12 
policy with State early childhood, postsecondary and workforce policies 
by enabling State collaboration across these areas; and
    <bullet> Recognizing each State's readiness to implement ESSA 
varies, the Federal Government should allow a flexible timeline to 
allow for early implementation or provide additional time for States to 
make necessary changes to State policy and improvements to State 
infrastructure.

    Furthermore, Governors will apply the lessons of Workforce 
Innovation and Opportunity Act (WIOA) implementation to our work on 
ESSA. With only guidance and without a regulation, Governors moved 
quickly and collaboratively to leverage WIOA's flexibility to develop 
State plans that envision a new, State-designed workforce system. 
Governors will work to implement ESSA with that same purpose.
    Ultimately, ESSA is built on the potential of State solutions and 
we look forward to focusing those solutions on empowering educators and 
parents to prepare students for the high-skill careers of the 21st 
century and a successful life.
    On behalf of the Nation's Governors, thank you for the opportunity 
to testify. I would be happy to answer questions at the appropriate 
time.

    The Chairman. Thank you, Governor Herbert.
    Ms. Weingarten.

 STATEMENT OF RANDI WEINGARTEN, PRESIDENT, AMERICAN FEDERATION 
              OF TEACHERS, AFL-CIO, WASHINGTON, DC

    Ms. Weingarten. Thank you, Senator. Thank you, Senators, 
and I particularly want to thank Senators Alexander and Murray 
and this whole committee for actually doing something that no 
one thought that Washington could do in terms of this reset. I 
really thank you.
    My name is Randi Weingarten. I'm the head of the AFT. But I 
want to speak today as a classroom teacher, because what my 
members are saying--and we've had many, many of them on the 
phone about this process. We had over 172,000 of them on the 
phone a few days after the bill was signed. That gives you a 
sense of how interested they are in this. They asked the 
following question: ``What will be different? We want things to 
be different.''
    They are fighting for the public schools their students 
deserve. They want to give the kids the opportunities that 
Governor Herbert just talked about, and they want to have the 
latitude, the conditions, the tools, and the respect they need 
for their jobs. They appreciate the reset.
    Let me make two or three more comments before I stop. The 
most important thing that States can do is to actually focus on 
these new accountability systems, accountability systems that 
are aligned with what kids need to know and be able to do, that 
help teachers help kids get there, and a system that actually, 
then, measures that progress or enables that progress. That's 
what the reset was, to go from a top-down test and punish 
system to one that will unleash that kind of creativity but 
also make sure that people are really focused on the kids that 
need education most. That's No. 1.
    Several of us have actually thought about what these 
systems should look like, and we are not proposing a top-down 
system, but to have States and enable States and locals to 
actually really start dreaming and thinking about this in terms 
of academic outcomes, opportunity to learn, and engagement and 
support.
    The second piece is that our members, my members--and I'm 
sure this is true with Becky's members as well--they want to do 
this work. Our whole executive council had a meeting last week 
where we spent hours talking about the things that they need 
help from their national union to do, what are the supports, 
what are the strategies to turn schools around, to make sure 
that there are real pathways for career tech-ed, to make sure 
that kids actually have those early learning opportunities to 
address poverty and persistent poverty, and have a reset in 
terms of evaluation, not from the Federal level, but from State 
and local levels, and they really want to do this.
    So the thing I would ask is that we have to have the time 
to do this right. We have gone through many, many reforms where 
there is a rush to publish and a rush to create and no 
attention paid to the implementation. So my members are 
asking--when they say, ``What will it look like? How will it be 
different?''--they want to see that the current system is put 
on hold for a little while so that we can actually have this 
new unleashing of creativity, this new accountability system, 
these new systems where they can actually engage kids. Put the 
current testing system on hold--not the tests and not data, but 
a moratorium on the high-stakes system that you have just 
reset.
    The last thing I would say is that we need to actually make 
sure States do their jobs and not have the Federal Government 
do so much regulation that this now becomes a repeat of the 
debate we just had. Let us do the work that Senator Alexander 
just talked about, us together, showing together that we 
actually really care about kids, and we can actually unleash 
that creativity and create the stability that children need.
    And, finally, finally, I've been working in education for a 
long time. We must seize the opportunity to get this reset 
right. This is the opportunity to redefine student learning in 
the robust way that any parent or educator would value and to 
offer the interventions that put struggling schools on the path 
to success, to have interventions that Kati and I would agree 
together would work to turn around schools.
    So I challenge district and State and Federal officials and 
all of us to empower and support teachers, to stoke students' 
curiosity, and help them pursue their dreams. And we stand 
ready to partner at every level with all who share this goal 
and to share the goal of bringing back joy to learning and to 
teaching.
    Thank you.
    [The prepared statement of Ms. Weingarten follows:]

                 Prepared Statement of Randi Weingarten

    Chairman Alexander, Ranking Member Murray. On behalf of the 1.6 
million members of the American Federation of Teachers, I appreciate 
the opportunity to testify on the implementation of the Every Student 
Succeeds Act. The AFT represents teachers, paraprofessionals and 
school-related personnel across the country. Our members fight for the 
public schools their students deserve, that can help give them the 
opportunities they need, and for educators who teach them to have the 
latitude, conditions, tools and respect to do their jobs. ESSA gives us 
the opportunity for the reset needed to move from a test-and-sanction 
environment to one of support and improvement.
    Before going any further, I want to thank Senators Alexander and 
Murray for their tremendous work. In a time of increased partisanship 
and gridlock, your leadership made all the difference. By working with 
and listening to educators, parents, school administrators and other 
stakeholders, you have made it possible for States to move away from 
high-stakes testing and punitive sanctions that have left students 
alternately stressed or bored, frustrated parents, and 
deprofessionalized and demoralized teachers.
    You have made it possible for States to create new accountability 
systems that focus on the meaningful learning that will prepare 
children for the complex world they are entering. You have made it 
possible to support educators as they meet the needs of the whole 
child, and have maintained the original intent of the Elementary and 
Secondary Education Act to address significant poverty and its effects. 
But States will need time to get it done and get it right.
    Though ESSA is not perfect, the AFT supported its passage, as it 
will help level the playing field for those students most in need to 
have opportunities to be prepared for life, college and career. ESSA 
turns the page on the broken policies of No Child Left Behind, NCLB 
waivers and Race to the Top. It has the potential to ensure every 
public school is a place where parents want to send their kids, where 
students are engaged, where educators want to teach, where the 
curriculum is rich, where there is joy in teaching and learning, and 
where, ultimately, all children are successful.
    While States create new, more effective teaching and learning 
systems, they should hold off on continuing to use the current, flawed 
high-stakes testing regime. As States develop the timelines and 
strategies for the interim period between passage of the new law and 
its full implementation--which is over 18 months--the AFT renews its 
call for a moratorium on the consequences of high-stakes testing. A 
reset means a reset.
    Many States have already begun this, and we urge others to follow 
suit. For example, New York has adopted a 4-year break on consequences 
of State tests for students and teachers. The Utah Legislature has 
introduced a bill to put a pause on how test scores are used. A lawsuit 
in New Mexico challenges the State's unreliable and unfair teacher 
evaluation system. And just last week, Tennessee announced that student 
test scores would not be used in teacher evaluations.
    School districts and States now need to dive deeply into the new 
work--which includes building accountability systems that provide a 
framework for school and student success. Our public schools should be 
places where children are met where they are and have multiple pathways 
to realize their potential. They should offer an engaging curriculum 
that focuses on teaching and learning, not testing, and that includes 
art, music, the sciences, physical education and project-based 
learning.
    Accountability systems should measure and reflect this broader 
vision of learning by using a framework of indicators for school 
success centered on academic outcomes, opportunity to learn, and 
engagement and support. For example, the AFT recommends academic 
outcomes measured by assessments, progress toward graduation, and 
career- and college-readiness. Opportunity-to-learn indicators should 
include curriculum access and participation, sufficient resources, and 
measures of school climate. Engagement and support indicators should 
look not only at students, but at teacher and parent/community 
involvement. This is hard work, and State leaders will need the input 
of educators and parents, informed by best practices found throughout 
the world.
                           regulatory process
    To provide the best opportunity for success, the AFT has urged the 
U.S. Department of Education to stick to the letter of the law that 
garnered such broad bipartisan support and limit guidance and 
regulation to only those issues that need clarification to make the law 
functional in practice. This is a new era of flexibility. 
Decisionmaking should be left to the States and the educators, parents 
and community members--the true stakeholders.
    As I wrote in a letter to Acting Secretary King in January 
regarding opting out and test participation requirements, States are 
now working out how they will move to new accountability systems, and 
they need flexibility and support, not threats of losing funding. There 
is no doubt that teachers will not like everything States do, but the 
intent of this law is clear. Hopefully, most States have learned from 
the failures of NCLB and will give educators the latitude and resources 
to deeply engage students and to focus on the whole child.
    The AFT is working with a coalition of States, school districts, 
educators and parents united by our strong, shared commitment to making 
ESSA work for students. Although all these stakeholders do not always 
agree, we are unified in our belief that ESSA is a historic 
opportunity. It is critical that this work has a direct impact in the 
classroom where teachers teach and students learn. We are dedicated to 
working together at the national level to facilitate our members' 
efforts to guarantee the success of this new law.
            we all have to step up to make the new law work
    Together, we must seize the opportunity to get this reset right. 
This is the opportunity to redefine student learning in the robust way 
that any parent or educator would value, and to offer interventions 
that will put struggling schools on the path to success. I challenge 
district, State and Federal officials, and all of us, to empower and 
support teachers to stoke students' curiosity and help them pursue 
their dreams. We stand ready to partner at every level with all who 
share the goal of bringing back the joy of teaching and learning.

    The Chairman. Thank you, Ms. Weingarten.
    Ms. Pringle.

STATEMENT OF BECKY PRINGLE, VICE PRESIDENT, NATIONAL EDUCATION 
                  ASSOCIATION, WASHINGTON, DC

    Ms. Pringle. Good morning, Senators, and thank you, 
Chairman Alexander and Senator Murray, not only for your 
leadership in the passage of the ESSA, but your obvious 
commitment to the implementation of this law. We know that the 
implementation will determine whether the aspirational goals of 
this law will actually make a difference for students.
    My name is Becky Pringle, and as you stated, I have spent 
over 30 years teaching middle school students science. In that 
experience, dealing with my babies with attitude, I gained a 
love not only of teaching but of advocacy for making sure that 
they had everything they needed to be successful.
    I have this amazing, a bit surreal, opportunity to 
represent 3 million teachers and education support 
professionals around this country. And I will tell you that as 
we actually began to believe that No Child Left Behind would 
become a thing of the past, we talked with thousands and 
thousands of members across the country.
    What they told us is they wanted three things. They wanted 
to ensure that their students had the access and opportunity to 
make sure that every one of them had the chance for success. 
They wanted us to guarantee that educators' expertise--the 
professionals who actually work with the students in the 
classroom not only had a voice, but they were part of the 
decisionmaking. The third thing they wanted was to reduce the 
volume and the high-stakes use and overuse and overspending on 
standardized tests so that they could actually have the time to 
teach and their students had the time to learn.
    The new law has the potential to actually deliver on all 
three of these things, so we could not be more excited. It 
paves the way for the opportunity to become a real part of what 
gets counted now. This is a historic development for this 
country and for education. The law also gives significant 
responsibilities now to States and to local districts, and with 
those decisions comes great responsibility, and we are working 
very closely to make sure that everyone steps up to that 
responsibility.
    This shift offers the U.S. Department of Education the 
opportunity to focus on what it should do best, which is the 
enforcement authority to ensure that students actually have 
equitable access and resources so that they can have a robust 
and well rounded education and so that they have the supports 
that they must have to fulfill their greatest potential, to 
become constructive members of their communities, to become 
productive participants in our economy, and to become engaged 
citizens of the United States and the world.
    The kind of monumental transition that we're talking about 
will require deep collaboration, and we could not be more 
excited about the conversations that have started with the 
coalition of folks sitting at this table. And you asked, 
Senator Alexander, that the Governors go back and form these 
coalitions back in their States.
    None of us can fall victim to the allure of shortcuts. 
That's what we're so excited about, that there is actually time 
built into this law for collaboration. It's only through this 
authentic commitment of all stakeholders to engage in this law 
together will we be successful for our students. The time to do 
this right is built into ESSA, and we urge the Department of 
Education to set a good example by not rushing its part of this 
very, very important process for the sake of expediency.
    The implementation process will simultaneously be 
developing at all levels, the national, State, and local, and 
ultimately in schools across this country as policies are 
updated. We urge that the Department ensure that this 
regulatory process is designed to include the best thinking, 
the ideas, and the concepts of educators and other stakeholders 
around the country.
    We must see more listening, not less, and we at the NEA are 
taking the lead on that. We have brought members and leaders, 
teachers and ESP from around the country several times into DC 
to have conversations about what they're thinking, what they're 
planning, what their ideas are to make sure that the 
implementation of this law does what we need for our students.
    Since January, NEA has joined with our State and local 
affiliates to create a cadre of educators on ESSA 
implementation. During this last holiday, we brought in over 60 
leaders to provide us with their ideas, their best ideas, on 
what this new accountability system can look like. And when we 
talk about an opportunity dashboard, what kind of indicators 
are in that dashboard? We need to talk about that together, and 
we need to learn from each other, and that's what we intend on 
doing.
    As educators, we know how lucky we are to have this 
privilege and this honor of stepping up, to leading what we're 
calling a transformation of our public education, because 
that's what's needed now. We need to be building toward the 
future of our students, not looking back at the past. We are 
ready to chart new pathways for our students' success. We are 
excited to lead and to help in this new beginning, and we are 
ready.
    On behalf of the 3 million members of the NEA and as a 
teacher of so many years, I thank you for the collaboration 
that you demonstrated in passing this law, and we look forward 
to continued work with you to make it right for our students.
    [The prepared statement of Ms. Pringle follows:]

                  Prepared Statement of Becky Pringle

    Thank you Chairman Alexander, Senator Murray and members of the 
committee. My name is Becky Pringle and I am a middle school science 
teacher from Pennsylvania with over 31 years of teaching experience. I 
also have the honor and the pleasure of serving as vice-president to 
the more than 3 million teachers and education support professionals 
who make up the National Education Association. There is no one more 
excited than our educators for the opportunity that the Every Student 
Succeeds Act provides for our students in the classroom; especially 
those students who are most in need.
    In the months leading up to the enactment of ESSA, we heard loud 
and clear from our members what they wanted to see in a new law that 
would:

    <bullet> Ensure students' access to opportunity that really matters 
in the accountability system;
    <bullet> Guarantee educators' expertise is included in 
decisionmaking; and
    <bullet> Reduce the volume and over-reliance on standardized 
testing.

    The new law has the potential to deliver on all three, and paves 
the way for opportunity to become a real part of ``what gets counted'' 
now, an historic development for our education system. The law also 
returns significant responsibility to States and schools districts to 
ensure decisionmaking is in the hands of people who know the students' 
names. This shift offers the U.S. Department of Education the 
opportunity to focus on its enforcement authority to ensure students 
have equitable access to a robust and well-rounded education and to the 
supports they need to fulfill their full potential as constructive 
members of their communities, productive participants in the economy, 
and engaged citizens of the United States and the world.
    This kind of monumental transition will require deep collaboration 
among multiple stakeholders, some of whom are not used to working 
together, and making sure more voices are at decisionmaking tables. 
None of us can afford to fall victim to the allure of shortcuts. It is 
only through the authentic commitment of all stakeholders to engage in 
the deep listening, professional respect and collective effort that 
this new law will be successful for students. The time to do this right 
is built into ESSA and we urge the U.S. Department of Education to set 
a good example by not rushing its part of the process for the sake of 
expediency.
    The implementation process will be simultaneously developing at the 
national level, at the State level, at the district level, and 
ultimately in schools across this country as policies are updated. We 
have urged the Department to ensure the regulatory process is designed 
to include the best thinking, ideas, and concepts from educators and 
other stakeholders from across the country.
    We must see more listening, not less.
    And we're practicing what we preach! The National Education 
Association has embarked on its own listening tour because we want to 
hear from teachers, education support professionals, specialized 
instructional support professionals, librarians, and higher education 
faculty and staff about how to make sure we engage our practitioners in 
taking advantage of this opportunity to get this right for our 
students. The Every Student Succeeds Act restores student learning to 
the center of everything educators do, and we intend on preparing our 
members to lead this transformation.
    Since January, NEA has joined with our State affiliates to create a 
cadre of educators to act as our ESSA implementation team. During the 
last holiday weekend, we brought over 60 State and local leaders to 
Washington, DC to provide our educators the time and space to discuss 
what is happening in their States and districts, what they are hearing, 
what they are planning, and to identify the tools and resources they 
need to ensure a successful implementation of ESSA at the school level.
    We saw the spark in the eyes of classroom teachers and 
paraeducators who got excited at the prospect of allowing more 
flexibility in the classroom to bring out students' joy of learning. We 
talked about the historic moment we have to work with districts and 
States to ensure all students, no matter their zip code, have access to 
the resources, services and supports that they need.
    As educators, we know we are lucky because we have the privilege of 
inspiring our students' curiosity, imagination, and desire to learn, 
and the opportunity to provide them with the caring, committed, and 
qualified educators they deserve. We know we cannot do this alone. It 
will take educators and parents, superintendents and school boards, 
State chiefs and State boards, State legislators and Governors all 
putting aside our differences and working together with the best 
interests of students in mind. We need to follow the example that all 
of you set for us in finding a way to collaborate to create a law that 
recognizes our collective responsibility to promote opportunity, equity 
and excellence for every one of our students.
    We are ready to chart new pathways for student success and we are 
excited about the opportunity to help lead the change ahead of us.
    On behalf of our members and our students, thank you for providing 
us with this incredible opportunity.

    The Chairman. Thank you, Ms. Pringle.
    Dr. Evers.

STATEMENT OF TONY EVERS, Ph.D., STATE SUPERINTENDENT OF PUBLIC 
   INSTRUCTION, WISCONSIN DEPARTMENT OF PUBLIC INSTRUCTION, 
                          MADISON, WI

    Mr. Evers. Thank you so much, Chairman Alexander, Ranking 
Member Murray, and members of the committee, for allowing me to 
testify today.
    As Senator Baldwin mentioned, in addition to being 
Wisconsin's State Superintendent of Public Instruction, I'm 
also president of the Council of Chief State School Officers. 
As president, I'm working to help CCSSO promote equity for all 
kids. Successful implementation of the Every Student Succeeds 
Act is fundamental to my equity platform. This body is well 
aware of CCSSO's strong support of ESSA. Now that the bill has 
become law, we remain committed to ensuring its successful 
implementation.
    I've spent my entire career as an educator. I've learned 
many things along the way, but, most importantly, when it comes 
to policy implementation, a strong State-local partnership is 
critical. The role of Federal Government should be to ensure 
accountability for student achievement and also, more 
importantly, to provide States and local districts the 
resources necessary to innovate, create equity, and improve 
outcomes.
    In Wisconsin, we're referring to this transition as moving 
from NCLB-prescribed to ESSA-informed. To leverage the 
flexibility available, Wisconsin is beginning with stakeholder 
engagement. Wisconsin has many existing collaborations. We will 
expand our outreach by bringing together many education groups 
and others who have a major stake in our success, such as 
business leaders, civil rights groups, parents, tribal 
representatives, legislators and, of course, the Governor, and 
others to help design the strategy that will improve education 
for all kids.
    We will also expand our outreach this spring with statewide 
listening sessions, a virtual discussion, and online feedback 
for all the stakeholders in crafting our State's plan. To that 
end, we hope the Department of Education is able to finalize 
any implementation regulations this fall so we have a clear 
understanding of their expectations.
    Of equal importance, we'll use this ESSA outreach effort to 
create permanent avenues for multiple stakeholders not only to 
weigh in on ESSA, but other issues that are important to 
Wisconsin and Wisconsin's schools and teachers. Thus, ESSA will 
make Wisconsin's education system stronger.
    We cannot forget that the original ESEA represents a 
seminal piece of the civil rights activity in the early 1960s. 
The chief State school officers are committed to this legacy. 
We share a common goal to make sure every child graduates 
college- and career-ready.
    Frankly, in Wisconsin, we've got a lot of work to do. We 
have one of the largest achievement gaps among the States 
between students of color and their peers. We plan to use the 
flexibility of the new law to infuse the work of my Promoting 
Excellence for All initiatives into the improvement work of our 
most struggling schools. Under ESSA, we will no longer need to 
impose a one-size-fits-all solution upon our most 
underperforming schools. Instead, we'll work collaboratively 
with local districts to find State and local solutions to local 
problems.
    Wisconsin is at the forefront of developing an 
accountability system that's reflective of the needs of our 
various stakeholders. Wisconsin has been praised for having one 
of the most transparent report cards by the education 
commission of the State. However, we look forward to using the 
new flexibility ESSA will provide us to create even a more 
useful report card system which could include other information 
regarding college- and career-readiness, new equity measures, 
and other metrics.
    A final word about accountability. All State chiefs are 
united in maintaining a strong accountability system that will 
clearly identify the achievement of all students and, in 
particular, subgroup performance. New ESSA flexibility will not 
change our determined effort to focus on equity.
    In Wisconsin, like other States, we welcome the partnership 
with the Federal Government to oversee the progress we are 
making. The success we envision under this new law will only be 
possible if we do not face new regulations from Washington. In 
recent months, since the law has passed, the Department of 
Education has demonstrated a great partnership with the States, 
providing helpful guidance on key issues. I applaud those 
positive efforts.
    Going forward, the Department of Education's role in 
providing States with guidelines and guardrails on the new law 
remains important. I and my fellow chiefs are open to guidance 
that clarifies various expectations for States under the new 
law. However, how we achieve these expectations is a State and 
local responsibility.
    So I thank you for allowing me to testify, and thank you 
for your role in passing this new law. States are ready, 
willing, and able to lead.
    Thank you.
    [The prepared statement of Mr. Evers follows:]

                Prepared Statement of Tony Evers, Ph.D.

                                summary
    In addition to being State Superintendent of Public Instruction in 
Wisconsin, I currently serve as the President of the Board of the 
Council of Chief State School Officers (CCSSO). As President, I am 
working to help CCSSO promote equitable educational opportunities for 
all students in the country, regardless of State or Zip code. 
Successful implementation of the Every Student Succeeds Act (ESSA) is 
fundamental to States being able to achieve this objective.
    This body is well aware of CCSSO's strong support of the ESSA. Now 
that the bill has become law, we remain committed to leading in 
implementing this new law with fidelity to ensure it lives up to its 
promise of every child succeeding--no matter their background or where 
they attend school. We look forward to continued coordination with all 
partners working to help States transition to the new law. The Every 
Student Succeeds Act reflects a bipartisan acknowledgment that States 
and local educators are in the best position to determine how to raise 
academic achievement.
    In Wisconsin, we are referring to this transition as moving from 
NCLB-prescribed to ESSA-informed. The Federal law now informs our work, 
but does not dictate how we go about it. We expect the Department of 
Education to maintain the flexibility of this latter focus, as the law 
intends, and avoid undue prescription. I, like my colleagues across the 
Nation, am eager to use the flexibility inherent in the law to build 
upon strategies we know work and create congruence with State goals.
    The original ESEA represents a seminal piece of civil rights 
legislation. The chief State school officers are committed to this 
legacy and as President of CCSSO I have made it clear that equity will 
be our priority. This is not just a focus in Wisconsin, but equity is a 
priority across our entire organization--for every State education 
chief, no matter their demographics or the challenges within the State. 
We have a common goal to make sure every child succeeds and to provide 
the supports necessary to accomplish this goal. I look forward to 
working with my colleagues to close achievement and opportunity gaps 
that have persisted for far too long in our States today.
    The progress we envision that Wisconsin can make under this new law 
will only be possible if we do not face new regulations that turn what 
was a good education law into a set of top-down mandates from 
Washington. In the recent months since the law passed, the Department 
of Education has demonstrated a good partnership with States, providing 
helpful guidance on key issues such as how States can transition away 
from Highly Qualified Teacher regulations. I applaud these positive 
steps from the Department of Education and appreciate their efforts to 
clarify congressional intent and leave these necessary decisions up to 
States and local communities.
                                 ______
                                 
    Thank you Chairman Alexander, Ranking Member Murray, and members of 
the committee for the opportunity to testify today.
    In addition to being State Superintendent of Public Instruction in 
Wisconsin, I currently serve as the President of the Board of the 
Council of Chief State School Officers (CCSSO). As President, I am 
working to help CCSSO promote equitable educational opportunities for 
all students in the country, regardless of State or Zip code. 
Successful implementation of the Every Student Succeeds Act (ESSA) is 
fundamental to States being able to achieve this objective.
    This body is well aware of CCSSO's strong support of the ESSA. 
State chiefs have been active over the past year in setting clear 
priorities for the reauthorization of the Elementary and Secondary 
Education Act and voicing our support as legislation moved through 
Congress.
    Now that the bill has become law, we remain committed to leading in 
implementing this new law with fidelity to ensure it lives up to its 
promise of every child succeeding--no matter their background or where 
they attend school. As an organization and as individual State chiefs, 
we have continued to voice support for this law and the responsible 
implementation of this law, including the proper Federal role, through 
public statements, official public comment, and now through these 
hearings on implementation in the House and Senate.
    We look forward to continued coordination with all partners working 
to help States transition to the new law.
    I have spent my career as an educator, working for over 30 years in 
education. I have been a teacher, principal, administrator, and deputy 
State superintendent, before being elected Wisconsin State 
Superintendent of Public Instruction in 2009 and reelected in 2013. In 
that time, it has become clear to me that, while there is a limited 
role for the Federal Government, primary decisionmaking authority 
regarding public education is best left to States and local districts. 
The role of the Federal Government should be to ensure accountability 
for student achievement, while providing States and local districts the 
resources and support to innovate and pursue effective strategies for 
their students.
    The Every Student Succeeds Act reflects a bipartisan acknowledgment 
that States and local educators are in the best position to determine 
how to raise academic achievement. We have seen some positive early 
signs from the U.S. Department of Education as it supports States' 
transitions into the new law, and we encourage them to maintain this 
focus throughout the regulatory and guidance process.
    State and local leaders are committed to achieving results for all 
of their students, but under No Child Left Behind (NCLB) overly 
prescriptive Federal mandates on the overall design of statewide 
accountability systems left States and local districts without the 
ability to tailor school improvement strategies to the unique needs of 
schools and students. Now, with the stability and flexibility promised 
by ESSA, we stand ready to develop programs more suited to the unique 
needs of our schools and students, and let me assure you that we are 
committed to using additional flexibility under the new law to improve 
educational outcomes for all students.
    In Wisconsin, we are referring to this transition as moving from 
NCLB-prescribed to ESSA-informed. The Federal law now informs our work, 
but does not dictate how we go about it. We expect the Department of 
Education to maintain the flexibility of this latter focus, as the law 
intends, and avoid undue prescription.
    Our efforts in Wisconsin are first and foremost to ensure people 
understand the tenets of the new law and the flexibility available to 
us. This effort begins with stakeholder engagement--with bringing 
together educators, parents, students, business leaders, civil rights 
groups, tribal representatives, advocates, higher education, 
legislators, our Governor and others to determine the best approaches 
for educating all children.
    Our engagement strategy starts with our existing formal 
collaborations, such as our existing Title I Committee of Practitioners 
and the school districts who are the focus of our State title I 
educator equity plan, and expands upon it this spring with statewide 
listening sessions, a virtual discussion, and online feedback for all 
of the stakeholders we hope to engage. We want to use these listening 
sessions as an opportunity to hear multiple perspectives of what is 
working in the State, what needs to be changed, and how people envision 
flexibility in practice. This will give us an opportunity to lay out an 
initial direction for the State plan we will need to submit under the 
new law.
    We are hoping that the Department of Education is able to finalize 
any implementing regulations this fall so we have a more complete 
picture of the law as it will be administered. It is our hope to then 
take those details, along with our initial plans back out to our broad 
stakeholder coalition for another round of feedback and discussion. It 
is critical to us that we have broad agreement as to how we will 
implement this law in Wisconsin.
    Now that ESSA is in place, I, like many of my colleagues across the 
Nation, am eager to use the flexibility inherent in the law to 
buildupon strategies we know work and create congruence with State 
goals. The ability to focus on State goals in the context of the larger 
Federal law is extremely important. We don't want to be working on 
disparate efforts that arbitrarily spread our resources and provide 
mixed messages concerning the work we need to do to ensure every child 
graduates college- and career-ready. That is our goal in Wisconsin and 
our agenda.
    We have worked in Wisconsin to set a definition of college- and 
career-ready and establish targets for closing gaps and increasing 
graduation rates with work focusing on four main questions.

     1. What and how should kids learn?
     2. How do we know if kids have learned?
     3. How do we ensure kids have highly effective teachers and 
schools?
     4. How should we pay for education in public schools?

    I know other States have also set educational goals and agendas and 
I am sure I speak for those chiefs as well when I say that the ability 
to focus in on what our State feels is important to address is critical 
in our efforts to support and improve educational outcomes for all 
students.
    Now that States have the authority to establish goals and design 
accountability systems, Wisconsin is eager to take the lead in 
generating stakeholder feedback about how we can continue to improve 
these systems so that they reflect best practices and ensure that all 
students, including low-income students, minority students, and those 
with disabilities, have access to a high-quality education.
    The original ESEA represents a seminal piece of civil rights 
legislation. The chief State school officers are committed to this 
legacy and as President of CCSSO I have made it clear that equity will 
be our priority. This is not just a focus in Wisconsin, but equity is a 
priority across our entire organization--for every State education 
chief, no matter their demographics or the challenges within the State. 
We have a common goal to make sure every child succeeds and to provide 
the supports necessary to accomplish this goal. I look forward to 
working with my colleagues to close achievement and opportunity gaps 
that have persisted for far too long in our States today.
    In Wisconsin, we have a lot of work to do. We have one of the 
largest achievement gaps in the country between students of color and 
their peers. I will be convening a standing group of people, including 
those in the civil rights community, to regularly consult with and 
provide updates to in regards to this law and other issues facing our 
schools. Openness and communication is key to ensuring that a focus on 
equity stays in the forefront.
    I also plan to use the flexibility of the new law to bring the work 
of my Achievement Gap Task Force into Wisconsin's work to implement 
ESSA. That group helped identify practices in schools and districts, 
using our State data, which demonstrated success closing achievement 
gaps. We then synthesized that information into learning modules for 
educators and interested members of the public to utilize. We plan to 
continue that work through a statewide Longitudinal Data Systems Grant 
and partner with our flagship public university, the University of 
Wisconsin-Madison, to pinpoint the needs of educators and provide them 
with research-based practices. Again, the flexibility in ESSA is 
allowing us to explore improvement strategies focused on closing the 
achievement gap that would have otherwise been a separate discussion as 
they were not part of the Department of Education's model.
    Additionally, Wisconsin was at the foreground of developing a local 
accountability system that is reflective of the needs of our various 
partners. Our State report cards were designed with the and guidance of 
the chairs of our legislative education committees, the Governor, and 
the many organizations that support our public and private schools. The 
result of that work has been praised as one of the Nation's best report 
card formats for parents and community members by the Education 
Commission of the States. We look forward to using the new flexibility 
ESSA provides to update our report cards to include information 
regarding college- and career-readiness, along with other metrics our 
partners have identified as being important for their constituencies.
    The progress we envision that Wisconsin can make under this new law 
will only be possible if we do not face new regulations that turn what 
was a good education law into a set of top-down mandates from 
Washington. In the recent months since the law passed, the Department 
of Education has demonstrated a good partnership with States, providing 
helpful guidance on key issues such as how States can transition away 
from Highly Qualified Teacher regulations. I applaud these positive 
steps from the Department of Education and appreciate their efforts to 
clarify congressional intent and leave these necessary decisions up to 
States and local communities.
    Going forward, as States and local districts implement this law, it 
is clear the Department of Education has a critical role to play in 
providing States with guidelines and guardrails on the new law. I and 
my fellow State chiefs are open to regulations that clarify the 
expectations for States under the new law, not how to achieve those 
expectations. For example, as Wisconsin outlined in the written 
comments we submitted to the Department of Education on January 21, 
these areas include how States will determine which students take 
alternative assessments, whether Congress intended for high schools 
identified under Section 1111(c) because of low graduation rates need 
to be title I schools, and critical implementation dates and deadlines. 
However, regulation and guidance should be limited to providing clarity 
on otherwise ambiguous or confusing issues, not implementing 
additional, prescriptive requirements that limit flexibility for States 
and local districts, and that fly in the face of clear congressional 
intent.
    In addition, a major issue that has been raised is how the Federal 
Government can be certain that, with the increased authority and 
flexibility provided to States, it is possible to ensure that States 
and local districts are focusing on improving outcomes for all students 
and subgroups of students. In States like Wisconsin, we welcome 
oversight of the progress we are making, but it is important that 
States and local districts have the flexibility to identify how we 
achieve the goals we have set for students: the measures we include in 
our accountability system, the weight we give these measure, and how we 
design interventions that reflect the realities facing unique student 
populations across the State. After all, we all recognize that the one-
size-fits-all approach from No Child Left Behind was not getting us to 
where we needed to be.
    Again, thank you for allowing me to testify, and thank you for 
passing this new law. States are ready, willing, and able to lead. We 
need the Department of Education to trust us, and let us develop the 
accountability systems that our children need and deserve. Federal 
regulations should focus on providing States the guidance and support 
they need to develop systems that meet the goals of the new law, while 
ensuring that policies governing implementation reflect the greater 
flexibility embodied in the statute.

    The Chairman. Thank you, Dr. Evers.
    Dr. Schuler.

    STATEMENT OF DAVID R. SCHULER, Ph.D., SUPERINTENDENT OF 
SCHOOLS, TOWNSHIP HIGH SCHOOL DISTRICT #214, ARLINGTON HEIGHTS, 
                               IL

    Mr. Schuler. Thank you, and I'd like to extend my deep 
appreciation to Chairman Alexander, Ranking Member Murray, and 
the entire committee for your tireless work to complete the 
reauthorization of the Elementary and Secondary Education Act. 
It is my belief that the language of ESSA is an exceptional 
piece of legislation, and I applaud Congress' overwhelmingly 
bipartisan support for ESSA.
    This new law holds States and school districts accountable 
while still allowing significant flexibility. Tight on goals 
and loose on means is a well-researched philosophy that 
correlates positively to student achievement. Past 
conversations regarding innovation and inspiration always 
started and usually stopped with the construct of: Will this 
comply with our State waiver or NCLB?
    Now, with those constraints lifted and ESSA the law of the 
land, States and districts can focus once again on truly 
meeting the needs of every student who walks through our 
schoolhouse doors on a daily basis, and for that, I am truly 
thankful to this committee.
    Two weeks ago at the National Conference on Education, 
AASA, the School Superintendents Association launched a new 
research-based, multi-metric initiative to redefine what it 
means to be college- and career-ready. That would have never 
happened under the waiver process or NCLB. Now, we have the 
ability to acknowledge that we all learn in different ways, our 
students learn in different ways, and they should be able to 
demonstrate readiness in different ways. Under ESSA, you have 
given us permission to dream and lead and transform public 
education in this country, and we will do just that.
    States now have an opportunity to examine schools on a more 
holistic level with the inclusion of a nonacademic factor. This 
represents a dramatic shift from the NCLB focus on snapshot 
testing to a more nuanced, well-rounded system to assess school 
quality. Rather than solely focusing on compliance and 
reporting to our State and the Department, which at times felt 
like all we were doing, we will now be able to direct and 
target our energies and resources where they can have the most 
impact, on our students and schools with the most needs.
    I would caution the Department to use restraint when 
issuing regulations and guidance, to ensure those regulations 
meet the letter, spirit, and intent of the law. In fact, I 
would urge the Department to consider creating a working group 
or task force of practitioners from diverse settings to review 
potential regulations and provide insight into the real 
implications and consequences of regulations before they are 
released.
    I would further urge the Department to find out what data 
is already being collected at the State level and please do not 
duplicate efforts. It is incredibly frustrating as a school 
district superintendent to have the State request a certain 
data set and then the Department request a very similar but not 
identical data set. That's extra work for our staff and 
provides murky and confusing data for the public.
    And I would implore the Department not to request data 
submission over the summer. Many of the rural schools in our 
country do not have the 12-month staff to comply with requests 
that come in during the summer and require compliance prior to 
the start of the following school year.
    Instead of focusing on collecting data to hammer and judge 
districts, imagine if the Department could be a repository for 
what is working in our Nation's schools in regards to career 
pathways, coding, closing the achievement gap, grade level 
readiness, a digital curricular transformation, resource 
efficiencies, and other issues facing U.S. schools. It would be 
so awesome if the Department could be the go-to place where 
schools and districts could find best practices from across the 
country.
    I'd like to call up one area where I think ESSA is a pure 
work of genius. In allowing high schools to use a college 
admissions test in lieu of the high school State assessment, as 
long as that college admissions test is approved by the State, 
it is my belief that you will change lives. Taking a college 
admissions test can change the trajectory of a student's dreams 
and aspirations.
    We have many students who don't think college is an option 
until they receive the results of that college admissions test. 
You are putting a realistic dream of postsecondary education in 
front of students who may have thought that graduation was the 
end point. That is truly changing lives one child at a time.
    I know that there have been concerns raised regarding 
schools, districts, and States lowering standards and 
expectations. I just don't believe that will happen. We have 
been examining student group data for years, and the vast 
majority of school districts have used data to improve 
instruction. That will continue.
    With Congress being the face of the implementation of ESSA, 
you have the oversight to ensure that ESSA is implemented in a 
manner consistent with the language, spirit, and intent of the 
legislation. America's teachers and school district leaders 
will not let you down. I applaud the committee's work on ESSA, 
and I am confident that America's public education system will 
be better as a result of the Every Student Succeeds Act being 
the law of the land.
    Thank you for the opportunity to be here this morning to 
share these thoughts.
    [The prepared statement of Mr. Schuler follows:]

             Prepared Statement of David R. Schuler, Ph.D.

    Thank you. I would like to extend my deep appreciation to Chairman 
Alexander, Ranking Member Murray, and the entire Committee on Health, 
Education, Labor, and Pensions for your tireless work to complete the 
reauthorization of the Elementary and Secondary Education Act. It is my 
belief that the language of the Every Student Succeeds Act is an 
exceptional piece of legislation and I applaud Congress' overwhelmingly 
bi-partisan support for ESSA.
    This new law holds States and school districts accountable, while 
still allowing significant flexibility. ``Tight on goals and loose on 
means'' is a well-researched philosophy that correlates positively to 
student achievement. Past conversations regarding innovation and 
inspiration always started, and usually stopped, with the construct of 
``Will this comply with our State Waiver or NCLB?'' Now, with those 
constraints lifted and ESSA the law of the land, States and districts 
can focus once again on truly meeting the needs of every student who 
walks through our schoolhouse doors on a daily basis and for that, I am 
truly thankful to the committee.
    Two weeks ago at the National Conference on Education, AASA, The 
School Superintendents Association launched a new research-based, 
multi-metric initiative to redefine what it means to be college- and 
career-ready. That would have never happened under the waiver process 
or NCLB. Now, we have the ability to acknowledge that we all learn in 
different ways, our students learn in different ways, and they should 
be able to demonstrate readiness in different ways. Under ESSA, you 
have given us permission to dream and lead and transform public 
education in this country and we will do just that.
    States now have an opportunity to examine schools on a more 
holistic level with the inclusion of a non-academic factor. This 
represents a dramatic shift from the NCLB focus on snapshot testing to 
a more nuanced, well-rounded system to assess school quality. Rather 
than solely focusing on compliance and reporting to our State and the 
Department of Education, which at times felt like all we were doing, we 
will now be able to direct and target our energies and resources where 
they can have the most impact . . . on our students and schools with 
the most needs.
    I would caution the Department of Education to use restraint when 
issuing regulations and guidance, to ensure those regulations meet the 
letter, spirit, and intent of the law. In fact, I would urge the 
Department to consider creating a working group or task force of 
practitioners from diverse settings to review potential regulations and 
provide insight into the real implications and consequences of 
regulations before they are released.
    I would further urge the Department to find out what data is 
already being collected at the State level and not duplicate efforts. 
It is incredibly frustrating as a school district superintendent to 
have the State request a certain data set and then the Department 
request a very similar, but not identical data set. That is extra work 
for our staff and provides murky and confusing data for the public . . 
. and I would implore the Department not to request data submission 
over the summer.
    Many of the rural schools in our country don't have the 12-month 
staff to comply with requests that come in during the summer and 
require compliance prior to the start of the following school year.
    Instead of focusing on collecting data to hammer and judge 
districts, imagine if the Department could be a repository for what is 
working in our Nation's schools in regards to career pathways, coding, 
closing the achievement gap, grade level readiness, a digital 
curricular transformation, resource efficiencies, and other issues 
facing U.S. schools. Wouldn't that be awesome? The Department being the 
``go-to'' place schools and Districts could find best practices from 
across the country.
    I would like to call out one area where I think ESSA is a pure work 
of genius. In allowing high schools to use a college admissions test in 
lieu of the high school State assessment, as long as the college 
admissions test is approved by the State, it is my belief that you will 
change lives. Taking a college admissions test can change the 
trajectory of a student's dreams and aspirations. We have many students 
who don't think college is an option until they receive the results of 
their college admissions test. You are putting a realistic dream of 
post-secondary education in front of students who may have thought that 
graduation was the end point. That is truly changing lives . . . one 
public school child at a time.
    I know that there have been concerns raised regarding schools, 
districts, and States lowering standards and expectations and I just 
don't believe that will happen. We have been examining student group 
data for years, and the vast majority of school districts have used 
data to improve instruction. That will continue. With Congress being 
the face of the implementation of ESSA, you will have the oversight to 
ensure that ESSA is implemented in a manner consistent with the 
language, spirit, and intent of the legislation.
    America's teachers and school district leaders will not let you 
down. I applaud the committee's work on ESSA and am confident that 
America's public education system will be better as a result of the 
Every Student Succeeds Act being the law of the land. Thank you for the 
opportunity to share these thoughts with you this morning and I am more 
than happy to answer any questions you may have.

    The Chairman. Thank you, Dr. Schuler.
    Ms. Haycock.

  STATEMENT OF KATI HAYCOCK, PRESIDENT, THE EDUCATION TRUST, 
                         WASHINGTON, DC

    Ms. Haycock. Mr. Chairman and Ranking Member Murray, thank 
you for the opportunity to testify here this morning.
    Let me begin, though, as we always do at the Ed Trust, with 
the data, because while I understand that it is useful for some 
to characterize the past 15 years as simply an exercise in 
unrealistic goals and test and punish that harm children, we 
actually can't have an honest conversation here this morning 
without acknowledging that the data tell a very different 
story.
    In the years since we had annual testing, full reporting, 
and serious accountability for results for all groups of kids, 
on the longest standing national examination of student 
learning, results for African American and Latino students 
improved faster than at any time since the 1980s. High school 
completion rates have also risen, with especially large gains 
for students of color and for students with disabilities.
    I am not arguing that tests and regulations produce those 
improvements. The hard work of educators does that. But what 
good policy does is it creates a sense of urgency about 
addressing problems that otherwise languish for decades. And 
now, frankly, is not the time to lose that sense of urgency, 
for despite the gains that I just talked about, too many 
students still lack the high-quality schooling that they need 
to thrive.
    It is those children, the disabled third-grader with 
extraordinary potential but who doesn't get the help that he 
needs to read fluently because his results don't count; the 
high achieving African American seventh grader who still, even 
today, is half as likely as similarly qualified peers to be put 
in eighth grade algebra, effectively ruling her out of a STEM 
career; and the eleventh grade Latino who could, in fact, be 
fully college-ready if her school would actually offer the 
demanding English courses that are offered in the schools 
across town. These and millions more like them are today's 
fierce urgency of now, and as Dr. King reminded us, those young 
people cannot afford the luxury of a cooling off period or the 
tranquilizing drug of gradualism.
    Thankfully, the new law that you crafted contains really 
important levers that can be used to speed up the progress 
instead of to slow it down: statewide standards and 
accountability that are aligned with the demands of college and 
careers; statewide accountability systems that expect more 
progress from the groups of kids that have been behind and that 
also expect action when any group of kids is struggling; and 
richer public reporting on both outcomes and opportunities for 
all groups, including for the first time per-pupil funding. 
Thank you, Senator Alexander, for your leadership on that.
    Certainly, how we do all this must be responsive to local 
context and must build on the insights of both educators and 
parents in the low-income communities and communities of color 
with the most at stake here. But recognizing the need for State 
and local decisionmaking does not, as some have suggested, mean 
that the only real role for the Department of Education is to 
cut checks, because in the celebration of a return to State and 
local control that surrounds the new law, one thing has been 
forgotten, and that is that the State and local track record of 
serving the interests of vulnerable children is not a good one.
    If we had time, I would share some examples of State and 
local leaders that are focusing on moving the needle for 
vulnerable children. One is sitting to my right. Another is 
sitting up there on the dais. But, frankly, there are far, far 
more examples of States and localities that are dragging their 
feet, that have let inequities fester for decades, and that are 
working harder, frankly, to circumvent the expectations in 
Federal law than to live up to them.
    From the 1990s, when Congress and ISA asked States to adopt 
accountability systems that expected progress for all students, 
especially English learners and poor students--and most States 
responded by not even reporting those data, much less making 
them matter--to the NCLB years, when States gamed the 
definition of high school dropout and some defined progress as 
not falling backward very far, to the last few years when the 
Department's waivers gave States the opportunity to not make 
group performance matter and virtually every State took up that 
opportunity, effectively giving A's and B's in State 
accountability systems to schools, even when their African 
American students were declining.
    This track record is why civil rights, disability, and 
business groups worked so hard and supported the guardrails 
that you put into the law and why we will continue to work 
together in States in implementation, even if we're not, 
Senator, on your list of coalition members. But it is also why 
the U.S. Department of Education cannot just recede into the 
background and must do its job with respect to guidance, 
regulation, and, where necessary, enforcement.
    Yes, ESSA presents an enormous opportunity for developing 
policies in a vastly more inclusive way. But we know from long 
experience that without the guardrails that you put in the law, 
the needs of the less powerful will just get less attention. 
That terrible tendency is why Congress has always needed and 
continues to need today a strong partner in the Department of 
Education.
    Thank you so much.
    [The prepared statement of Ms. Haycock follows:]

                   Prepared Statement of Kati Haycock

                                summary
    The Every Student Succeeds Act (ESSA) contains a number of 
important levers that education leaders, parents, members of the civil 
rights and business communities, and advocates can use to advance 
education equity, including:

    <bullet> Consistent, state-adopted standards for all students that 
are aligned with the demands of postsecondary education and work;
    <bullet> Statewide annual assessment aligned with statewide 
standards;
    <bullet> Clear requirements that statewide accountability systems 
must expect more progress for the groups of students who have been 
behind, base school ratings on the progress of all groups of students, 
and expect action when any group of students is consistently 
underperforming;
    <bullet> An expectation that States and districts report on and 
address inequities in the rates at which low-income students and 
students of color are assigned to ineffective, out-of-field, or 
inexperienced teachers;
    <bullet> Continued targeting of Federal funding to the highest 
poverty schools and districts; and
    <bullet> Richer public reporting on academic outcomes and 
opportunities to learn for all groups of students, including, for the 
first time, school-level, per-pupil spending and access to rigorous 
coursework.

    The challenge now is to translate the potential of ESSA into 
improved State and local policies and practices, and, ultimately, 
improved outcomes for all students. Doing this means that systems 
developed under ESSA must be responsive to unique State and local 
contexts and build on the insights of local stakeholders--especially 
the low-income communities and communities of color with the most at 
stake. And if these systems are to help generate real improvements, 
they must build on insights from successful educators, too.
    But let me be clear: Recognizing and honoring the need for State 
and local decisionmaking does not, as some have suggested, mean that 
from now on, the U.S. Department of Education should do nothing more 
than cut checks. Under ESSA, the Department has an important role to 
play through enforcement, regulation, and guidance, especially when it 
comes to ensuring that States and localities are taking seriously their 
responsibility to all of their children.
    Because in all the celebration of ``a return to State and local 
control '' surrounding this law, let's not forget that the State and 
local track record of serving the interests of vulnerable students is 
not a good one. In too many places, State and local leaders have let 
well-documented inequities in access to opportunities to learn--from 
rigorous coursework to education funding to strong, well-supported 
educators--fester. And they've too-often made decisions aimed at 
getting around, rather than living up to, the expectations set by 
Congress.
    This track record is why ESSA includes the levers I described 
above, many of which we at Ed Trust fought for alongside partners in 
the business, civil rights, and disability communities. It's why we'll 
continue to work alongside our partners to inform State and local 
implementation. And it's why the U.S. Department of Education cannot 
recede into the background and must continue its historic focus on 
looking out for the children who are likely to come last in State 
improvement efforts.
                                 ______
                                 
    Chairman Alexander, Ranking Member Murray, and members of the 
Senate HELP Committee, thank you for the opportunity to share my 
perspective on implementation of the Every Student Succeeds Act (ESSA). 
This perspective is informed by The Education Trust's long history of 
working alongside educators, advocates, and policymakers to close gaps 
in opportunity and achievement separating low-income students and 
students of color from their peers.
    Allow me to begin as we always do at Ed Trust, with the data. It's 
become popular to characterize the No Child Left Behind (NCLB) era as 
lost years for our Nation's students--years in which ``unrealistic 
goals'' and ``test and punish'' systems shackled educators' hands and 
yielded nothing but rote instruction and shallow learning. But the data 
suggest a different story altogether: Since we've had Federal 
requirements for annual testing, full public reporting, and serious 
accountability for the results of every group of children, achievement 
among black, Latino, and low-income students has improved.
    On the longest standing national measure, the National Assessment 
of Educational Progress (NAEP) Long-Term Trends, results for black and 
Latino students improved faster than at any time since the 1980s. 
Instead of the gap-widening we saw during much of the 1990s, we have 
seen gap-narrowing since that time.
    On the main NAEP exam, the percentage of low-income fourth-graders 
at the Below Basic level in math was reduced by more than half between 
2000 and 2015, while the percentage performing at the Proficient or 
Advanced levels tripled. There was similar improvement among students 
of color. Among black fourth-graders, for example, the percentage at 
the Below Basic level in math declined from 65 percent to 35 percent; 
among Latinos, the Below Basic numbers declined from 59 percent to 27 
percent.
    High school completion rates are also up, especially for black and 
Latino students. In 2003, only an estimated 59 percent of black 
students and 66 percent of Latino students graduated on time. In 2014, 
73 percent of black students and 76 percent of Latino students 
graduated in 4 years. Among students with learning disabilities, a 
group of students that many continue to write off as being unable to 
learn, the percentage earning a regular high school diploma rose from 
57 percent in 2002 to 68 percent in 2011.
    Let's be clear that laws and regulations themselves don't close 
gaps and raise achievement. Only the hard work of educators, students, 
and parents can do that. But smart policy has proved to be an important 
source of urgency to attend to the needs--and potential--of low-income 
students, students of color, English learners, and students with 
disabilities. The NCLB expectation that a school could not be 
considered successful unless it was successfully improving achievement 
for all groups of students sparked action in schools and districts that 
had long been content to coast by on overall averages.
    Now to be sure, whether we're talking about reading and math 
achievement or graduation rates, the gains we've seen as a nation are 
nowhere near enough.

    <bullet> When the chances that a young black man will be imprisoned 
by age 34 drop from 68 percent to 21 percent with high school 
completion--and fall to 7 percent with a college degree--we cannot stop 
until we ensure that every young person graduates ready for 
postsecondary education.
    <bullet> When elementary reading is one of the most important 
predictors of high school life opportunities, yet almost half of our 
black, Latino, and Native children are still reading below the basic 
level, we cannot stop until we equip every child with the reading 
skills they need.
    <bullet> When African American high school students are less than 
half as likely to reach college-readiness benchmarks as white students, 
and gaps between Latino and white students persist, we cannot stop 
until we eliminate the deep inequities within our education system that 
perpetuate--and even enlarge--these gaps, and provide every single 
child in America with the education they need to climb the rungs of 
opportunity in this country.

    What does all this mean for ESSA implementation? In short, we need 
to pick up the pace of improvement--not back off.
    Thankfully, the new law crafted by this committee along with your 
House counterparts contains a number of important levers that education 
leaders, parents, members of the civil rights and business communities, 
and advocates can use to advance education equity, including:

    <bullet> Consistent, State-adopted standards for all students that 
are aligned with the demands of postsecondary education and work;
    <bullet> Statewide annual assessment aligned with statewide 
standards;
    <bullet> Clear requirements that statewide accountability systems 
must expect more progress for the groups of students who have been 
behind, base school ratings on the progress of all groups of students, 
and expect action when any group of students is consistently 
underperforming;
    <bullet> An expectation that States and districts report on and 
address inequities in the rates at which low-income students and 
students of color are assigned to ineffective, out-of-field, or 
inexperienced teachers;
    <bullet> Continued targeting of Federal funding to the highest 
poverty schools and districts; and
    <bullet> Richer public reporting on academic outcomes and 
opportunities to learn for all groups of students, including, for the 
first time, school-level, per-pupil spending and access to rigorous 
coursework.

    Taken together, these levers represent key building blocks of an 
equity-focused school system--one that sets high expectations for all 
students, provides resources necessary for meeting those expectations, 
measures and reports progress toward them, and ensures action when any 
school, or any group of students, falls off track. We thank members of 
this committee for including them.
    The challenge now is to translate the potential of ESSA into 
improved State and local policies and practices, and, ultimately, 
improved outcomes for all students. Doing this means that systems 
developed under ESSA must be responsive to unique State and local 
contexts and build on the insights of local stakeholders--especially 
the low-income communities and communities of color with the most at 
stake.
    If these systems are to help generate real improvements, they must 
build on insights from successful educators, too. While improvement 
goals must be ambitious, they must also feel achievable. We all know 
that compliance with expectations is one thing, broad ownership of 
those expectations is quite another. This difference was painfully 
clear during the NCLB era.
    But let me be clear: Recognizing and honoring the need for State 
and local decisionmaking does not, as some have suggested, mean that 
from now on, the U.S. Department of Education should do nothing more 
than cut checks. Under ESSA, the Department has an important role to 
play through enforcement, regulation, and guidance, especially when it 
comes to ensuring that States and localities are taking seriously their 
responsibility to all of their children.
    Because in all the celebration of ``a return to State and local 
control'' surrounding this law, let's not forget that the State and 
local track record of serving the interests of vulnerable students is 
not a good one. If we had time, I would share with you some examples of 
State and local leaders who are really moving the needle for their low-
income students, students of color, students with disabilities, and 
English learners. But even today, when such students represent the 
majority of our young people, there are many, many more examples of 
States and localities dragging their feet and bucking their 
responsibilities to these children.
    In too many places, State and local leaders have let well-
documented inequities in access to opportunities to learn--from 
rigorous coursework to education funding to strong, well-supported 
educators--fester.
    They've made decisions aimed at getting around, rather than living 
up to, the expectations set by Congress.

    <bullet> Under the Improving America's Schools Act, the 1994 
reauthorization of ESEA, States were required to hold schools 
accountable for the ``continuous and substantial improvement'' of all 
students, particularly economically disadvantaged and limited English 
proficient students. Yet only a handful of States actually included 
subgroup performance in their accountability system. And the majority 
didn't even report performance by group.
    <bullet> Under NCLB, States were required to set goals for the 
percentage of English learners making progress toward English 
proficiency. Nine States expected fewer than half of their ELs to make 
progress toward English proficiency.
    <bullet> Also under NCLB, States were required to hold high schools 
accountable for graduation rates. Not only did States game the 
definition of graduation rates, but they also set exceedingly low 
expectations for improvement. Over half of States set their improvement 
target at any progress over the past year, meaning that an increase 
from 50 percent to 50.1 percent was acceptable. Two States and the 
District of Columbia actually defined improvement as not losing ground. 
And as low as these expectations were, States applied them only to 
students overall, not individual groups of students despite the fact 
that graduation rates were lowest among low-income students, students 
of color, English learners, and students with disabilities.

    Unfortunately, this reluctance to expect much of schools vis-a-vis 
their low-income children and children of color didn't end when States 
got more flexibility under NCLB waivers. When given the opportunity to 
do so, most States chose to create school ratings systems that outright 
ignore the performance of individual student groups. Rather than 
holding schools accountable for serving each student group, many 
created ``supergroups'' that treat students with vastly different 
needs--such as students with disabilities and English learners--the 
same.
    This track record is why ESSA includes the levers I described 
above, many of which we at Ed Trust fought for alongside partners in 
the business, civil rights, and disability communities. It's why we'll 
continue to work alongside our partners to inform State and local 
implementation. And it's why the U.S. Department of Education cannot 
recede into the background and must continue its historic focus on 
looking out for the children who are likely to come last in State 
improvement efforts.
    Smart Federal involvement can and should establish guardrails for 
State and local action, assure that the equity goals of Federal 
education law are honored, and ensure responsible stewardship of the 
$15 billion investment in title I that Federal lawmakers make every 
year.
    We've seen the Federal government play this role in previous 
iterations of this law. Going back to the graduation-rate example under 
NCLB, when States' efforts to hide, rather than own, their dropout 
problems became clear, the Bush administration used regulation to 
enshrine a more accurate graduation-rate definition and ensure that 
States held schools accountable for making substantial progress in 
raising graduation rates for all groups of students.
    What would State and local decisionmaking balanced with appropriate 
Federal oversight look like in ESSA implementation? Let me give just a 
few examples, taken from Ed Trust's comprehensive public comments on 
ESSA implementation submitted to the U.S. Department of Education.

    <bullet> When it comes to assessment, having a consistent measure 
of student achievement is critical for equity, allowing parents to 
compare results between districts, educators to benchmark progress on 
standards, and State leaders to build fair, statewide accountability 
systems.
    States and districts interested in taking advantage of the option 
for districts to use nationally recognized high school assessments that 
are different than the statewide high school assessment will need to 
put in place safeguards to ensure that these assessments are rigorous 
and truly comparable to statewide tests.
    The Department should require States or districts proposing to take 
advantage of this option to provide evidence that the nationally 
recognized assessment is aligned to State standards and to submit 
comparability studies and scoring crosswalks to demonstrate how the new 
assessment will yield comparable, high-quality data.
    <bullet> Goals are the cornerstone of meaningful accountability--
they must be challenging but feel attainable. And if we are going to 
close the achievement gaps that have hobbled our Nation for too long, 
they must expect more progress for the groups of students who are 
starting further behind. This will be especially important--and 
challenging--given States' transition to new, more rigorous 
assessments.
    The Department should ask States to clearly explain their goal-
setting methodology and clarify the evidence States will need to 
provide to demonstrate that the goals reflect both ambition and gap-
closing. As one example, States could show how their goals are 
benchmarked against top-performing schools for students overall, and 
the top-improving schools either for students overall or for student 
groups, whichever is faster.
    <bullet> If we're truly going to move the needle on achievement for 
all, we need progress from students in all kinds of schools, not just 
the very lowest performing ones, as has been the focus under NCLB 
waivers.
    States will need to establish a rigorous definition of 
``consistently underperforming'' for student groups. When any group is 
consistently underperforming, that must be clear in the school's 
rating, and it must prompt action to better serve those students.
    The Department should require States to align their definition of 
consistently underperforming with the statewide goals for each group 
and clarify that the definition must include not just the lowest 
performing schools for groups of students, but also those that are 
consistently not making progress for one or more groups.

    In these examples and the other places where the Department can and 
should regulate, the goal is always to ensure a deliberate focus on 
equity--on improving achievement for all kids, but especially those 
whose potential is now being squandered.
    ESSA presents an opportunity for developing policies and practices 
in a truly inclusive way--in a way that responds to the different needs 
of States and localities, but that never loses sight of the ultimate 
goal of equity for all students. As the hard work of implementation 
begins, we urge States and districts to be thoughtful about their new 
systems. We urge State and district policymakers to involve the 
community--from civil rights to business to parents to educators--in a 
meaningful way, from start to finish.
    But we know from long experience that, without the levers you 
provided in the law, the needs of the less powerful will get less 
attention. That terrible tendency is why Congress has always needed--
and continues to need today--a watchful eye in the Department of 
Education to prevent States from skirting their responsibilities to all 
children, especially the most vulnerable.

    The Chairman. Thank you, Ms. Haycock.
    Ms. Pompa.

 STATEMENT OF DELIA POMPA, SENIOR FELLOW OF EDUCATION POLICY, 
           MIGRATION POLICY INSTITUTE, WASHINGTON, DC

    Ms. Pompa. Thank you, Chairman Alexander, Ranking Member 
Murray, and members of the committee, for providing me the 
opportunity to present testimony this morning.
    My name is Delia Pompa. I am a Senior Fellow for Education 
Policy at the Migration Policy Institute, or MPI, an 
independent, nonpartisan, nonprofit think tank in Washington, 
DC, that analyzes U.S. and international migration trends and 
policies. MPI examines and analyzes the changing demographics 
of the U.S. pre-K-12 student population and major challenges 
policymakers and educators face as they seek to respond to the 
needs of diverse immigrant and English language learner 
children.
    My own work in public school improvement has been shaped by 
many years of experience leading local, State, and Federal 
education agencies and national and international 
organizations. I have deep respect for the bipartisan process 
led by Chairman Alexander and Ranking Member Murray that 
resulted in the Every Student Succeeds Act that promises to 
ensure equity while fostering innovation and excellence.
    The primary responsibility for making that promise a 
reality lies squarely on the shoulders of States and districts. 
But they can't do it alone. It is critical that the regulatory 
process ensures that States and districts keep equity, 
particularly accountability for the progress of all students, 
at the core of their work and ensures that States and districts 
engage a wide range of stakeholders in developing and 
implementing their new accountability and school improvement 
plans.
    While we think there need to be regulations to clarify the 
law to increase the chances of successful implementation, we 
also know that regulations alone are not enough. We all have to 
help States and districts succeed. Already at MPI, we have 
begun the process of supporting implementation.
    Along with community stakeholders, educators, and other 
national groups, MPI is implementing a strategy in two parts. 
First, we have analyzed the law to understand new provisions so 
that we can develop examples for States to consider as they 
implement particular provisions of the law. The second stage of 
our work relies on partnerships with a variety of stakeholders 
in States. We will work with large State coalitions of 
community groups to increase awareness of the new law and, most 
importantly, awareness of their right and responsibility to 
participate in shaping State policy.
    English learners are a growing part of the public school 
population. Today, one in four students in U.S. schools is a 
child of an immigrant, and one in 10 is an English learner. 
ESSA includes important policies recognizing the needs and 
diversity of English learners in an effort to close the ongoing 
achievement gap between them and other students. However, 
States will need the law clarified, in many cases through 
regulation, and they will need ongoing guidance and support in 
how to achieve improved results, including for English 
learners.
    For example, ESSA requires States to have a standardized 
process for classifying students as English learners as well as 
a standardized process for how English learners exit special 
services. States will need guidelines for the parameters of 
their definition, however. This will be a policy challenge for 
all States, particularly for those States that do not currently 
have standardized statewide processes.
    The law also now permits States to include in the English 
learner subgroup EL students up to 4 years after they have 
exited special language services. However, by including former 
English learners, overall scores for the subgroup will rise and 
may mask the performance of current English learners. The 
Department should address this issue through the regulatory 
process. The Federal role in education has been critical to 
safeguarding the civil and educational rights of English 
learners, and it is important to ensure that gains under 
Federal law are not lost in State and local accountability 
plans.
    We are pleased that parent and family engagement are 
provided for in this law. Our experience in the past has most 
often been that in most States this engagement has been 
perfunctory and superficial. Regulations articulating specific 
examples of meaningful parent, family, and community engagement 
in policy development should further the cause of all students.
    As MPI moves forward helping States and districts implement 
ESSA, we share a commitment to smart regulation and guidance 
that allows for innovation and for local situations but that 
also provides States with parameters built on the framework of 
equity set out in the original Elementary and Secondary 
Education Act. MPI looks forward to working with you, with the 
Department of Education, and with the breadth of stakeholders 
who believe in the promise of our school system.
    Thank you for this opportunity to share our experience and 
our aspirations for all children.
    [The prepared statement of Ms. Pompa follows:]

                   Prepared Statement of Delia Pompa

                                summary
    The Every Student Succeeds Act (ESSA) promises to ensure equity 
while fostering innovation and excellence. The primary responsibility 
for making that promise a reality rests squarely on the shoulders of 
States and districts--but they can't do it alone. It is critical that 
the regulatory process ensure that States and districts keep equity, 
particularly accountability for the progress of all students, at the 
core of their work and to ensure that they engage a wide range of 
stakeholders in developing and implementing their new accountability 
and school improvement plans.
    It is important to recognize the advancement that ESSA stands to 
make with respect to English learners (ELs) in K-12. ELs are a growing 
part of the public school population; today one in four students in 
U.S. schools is the child of an immigrant, and 1 in 10 is an English 
learner. ESSA includes important policies recognizing the needs and 
diversity of ELs in an effort to close the ongoing achievement gap 
between them and other students. It:

    <bullet> Ushers in uniformity with regard to classification of 
students as ELs and including English proficiency outcomes in States. 
ESSA requires States to have a standardized process for classifying 
students as English learners as well as a standardized statewide 
process for how ELs exit special services (or how they are 
reclassified). Regulations are needed to ensure equity.
    <bullet> Requires the inclusion of English proficiency outcomes in 
States' accountability systems. Yet States will need guidance regarding 
what ``making progress'' in developing English proficiency means. This 
provision is an important example of where more clarification and 
technical assistance are required from the Department of Education. 
Clarity on how to measure progress in English proficiency versus 
measuring English proficiency itself should be embedded in regulations.
    <bullet> Includes provisions for parent and family engagement. This 
engagement has often been perfunctory in most States. Regulations 
articulating specific examples of meaningful parent, family and 
community engagement in policy development could further the cause of 
equity for ELs and all children.

    These new, important EL policies will not be effective if the 
overall accountability systems that States develop are not strong 
enough to ensure that schools are held accountable for the success of 
all children. The size and distribution of the EL population continues 
to grow, and a large and ever expanding number of States and districts 
will be affected by changes for ELs in ESSA. Consequently, provisions 
regarding EL students should be as clear as possible to the educators 
and communities implementing them. Given ESSA's overall thrust of 
reducing Federal authority in education, ensuring that EL needs are met 
will be complicated by the fact that education agencies in 50 States 
and DC will be interpreting the new mandates and perhaps implementing 
them differently.
    If ESSA is to succeed, States will need more support in 
implementing the law, and will need the law clarified in many cases 
through regulation. They will also need ongoing guidance and support in 
how to achieve improved results, including for ELs. We need the 
Department of Education to provide clarity through regulation that the 
clock cannot be turned back on progress for all kids.
                                 ______
                                 
    Thank you Chairman Alexander, Ranking Member Murray and members of 
the committee for providing me the opportunity to present testimony. My 
name is Delia Pompa; I am a Senior Fellow for Education Policy at the 
Migration Policy Institute (MPI), an independent, non-partisan, non-
profit think tank in Washington, DC that analyzes United States and 
international migration trends and policies. Within MPI, the National 
Center on Immigrant Integration Policy (NCIIP) does significant work in 
the education arena, examining and analyzing the changing demographics 
of the U.S. PreK-12 student population and major challenges facing 
local, State and Federal policymakers and program managers as they seek 
to respond to the needs of diverse immigrant and English Learner (EL) 
children.
    My work in public school improvement has been shaped by many years 
of experience leading local, State and Federal agencies and national 
and international organizations. I began my career as a kindergarten 
teacher in San Antonio and went on to serve as a district administrator 
in Houston and as Assistant Commissioner of the Texas Education Agency. 
I was formerly the Director of Education, Adolescent Pregnancy 
Prevention and Youth Development for the Children's Defense Fund and 
Director of the Office of Bilingual Education and Minority Language 
Affairs at the U.S. Department of Education. Immediately prior to my 
work at MPI, I was Senior Vice President for Programs at the National 
Council of La Raza.
    I have deep respect for the bipartisan process led by Chairman 
Alexander and Ranking Member Murray that resulted in the Every Student 
Succeeds Act (ESSA), which promises to ensure equity while fostering 
innovation and excellence. The primary responsibility for making that 
promise a reality rests squarely on the shoulders of States and 
districts, which have been given greater authority under ESSA to 
interpret the new mandates. But they can't do it alone. It is critical 
that the regulatory process ensure that States and districts keep 
equity, particularly accountability for the progress of all students, 
at the core of their work and ensure that States and districts engage a 
wide range of stakeholders in developing and implementing their new 
accountability and school improvement plans.
    In addition, it is important to recognize the great advancement 
that ESSA could make with respect to English learners in K-12 
classrooms. ESSA includes important policies that recognize the needs 
and diversity of ELs in an effort to close the ongoing achievement gap 
between them and other students. The bill also crucially improves 
accountability for how ELs are achieving--an expansion of the last 
reauthorization of the Elementary and Secondary Education Act (ESEA). 
ESSA responds to the reality that ELs are a large and growing part of 
the U.S. public school population. Given ESSA's overall thrust of 
reducing Federal authority in education, however, ensuring that EL 
needs are met will be complicated by the fact that education agencies 
in 50 States and the District of Columbia will be interpreting the new 
mandates and perhaps implementing them differently.
    Today one in four students in U.S. schools is the child of an 
immigrant; 1 in 10 is an English learner. Improvements in 
accountability and instruction provisions in ESSA will raise outcomes 
not just for these children, but also overall student achievement in 
the growing number of States and districts where they are a significant 
portion of the school population. In 2014 the Department of Education 
reported that nearly 5 million students in the U.S. K-12 system--or 
roughly 10 percent--were ELs. But their relative concentration ranges 
widely by State and district: fully 23 percent of California's students 
in 2014 were English learners, as were 40 percent of students in the 
Denver Public Schools. Consequently, provisions regarding EL students 
should be as clear as possible to the educators and communities who 
will implement them. As indicated in the charts below, the size and 
distribution of the EL population continues to grow. The numbers and 
their location are a clear indication of how many States and districts 
will be affected by changes for ELs in ESSA.

Map 1. States with the Highest English Learner Student Density, 
                    SY 2012-13
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                    
    Source: Migration Policy Institute (MPI) calculations based on data 
obtained through the U.S. Department of Education, ``ED Data Express 
Tool,'' accessed February 23, 2015. Data on total student enrollment 
derive from the Common Core of Data (CCD). Data on enrollment of EL 
students by State derive from the ``Consolidated State Performance 
Report'' (CSPR).

      Table 1. Top 15 States with Highest English Learner Student Enrollment in Public Schools, PSY 2012-13
----------------------------------------------------------------------------------------------------------------
                                                                                                     Percent ELs
                               State                                  EL Enrollment    Total K-12     among K-12
                                                                                       enrollment      students
----------------------------------------------------------------------------------------------------------------
United States......................................................       4,851,527      49,474,030          9.8
California.........................................................       1,521,772       6,213,194         24.5
Texas..............................................................         773,732       5,077,507         15.2
Florida............................................................         277,802       2,692,143         10.3
New York...........................................................         237,499       2,708,851          8.8
Illinois...........................................................         190,172       2,055,502          9.3
Colorado...........................................................         114,415         863,121         13.3
Washington.........................................................         107,307       1,051,694         10.2
North Carolina.....................................................         102,311       1,506,080          6.8
Virginia...........................................................          99,897       1,263,660          7.9
Georgia............................................................          94,034       1,703,332          5.5
Arizona............................................................          91,382       1,087,697          8.4
Michigan...........................................................          80,958       1,513,153          5.4
Nevada.............................................................          77,559         445,017         17.4
Massachusetts......................................................          71,066         954,507          7.4
Minnesota..........................................................          70,436         845,291          8.3
----------------------------------------------------------------------------------------------------------------
Notes: National EL enrollment totals do not include outlying territories such as Guam, American Samoa, the
  Marshall Islands or Puerto Rico. The share of ELs among K-12 students was calculated by dividing EL enrollment
  by total K-12 enrollment for all States and the Nation.
Source: MPI calculations are based on data obtained through the U.S. Department of Education, ``ED Data Express
  Tool,'' http://eddataexpress.ed.gov/index.cfm. Data on total student enrollment derive from the Common Core of
  Data (CCD). Data on enrollment of EL students by State derive from the Consolidated State Performance Reports
  (CSPR).


                         Table 2. Top 25 School Districts by EL Enrollment,  SY 2011-12
----------------------------------------------------------------------------------------------------------------
                                                                                                    Percent ELs
                District/Agency Name                    State      EL enrollment    Total K-12      among K-12
                                                                                    enrollment       students
----------------------------------------------------------------------------------------------------------------
Los Angeles Unified................................           CA         152,592         659,639            23.1
New York City*.....................................           NY         142,572         968,143            14.7
Clark County.......................................           NV          68,577         313,398            21.9
Dade County........................................           FL          66,497         350,239            19.0
Dallas Independent.................................           TX          56,650         157,575            36.0
Houston Independent................................           TX          54,333         203,066            26.8
City of Chicago....................................           IL          53,786         403,004            13.3
Fairfax County.....................................           VA          36,551         177,606            20.6
San Diego Unified..................................           CA          36,453         131,044            27.8
Santa Ana Unified..................................           CA          32,170          57,250            56.2
Orange County......................................           FL          28,311         180,000            15.7
District 1 County of Denver........................           CO          25,417          80,890            31.4
Hawaii Department of Education.....................           HI          24,750         182,706            13.5
Broward County.....................................           FL          24,143         258,478             9.3
Hillsborough County................................           FL          22,474         197,041            11.4
Fort Worth Independent.............................           TX          21,913          83,109            26.4
Austin Independent.................................           TX          21,751          86,528            25.1
Long Beach Unified.................................           CA          20,746          83,691            24.8
Garden Grove Unified...............................           CA          20,743          47,999            43.2
Montgomery County..................................           MD          20,580         146,459            14.1
Gwinnett County....................................           GA          18,968         162,370            11.7
Palm Beach County..................................           FL          18,698         176,901            10.6
Fresno Unified.....................................           CA          17,536          74,235            23.6
San Bernardino City Unified........................           CA          17,488          54,379            32.2
San Francisco Unified..............................           CA          17,083          56,310            30.3
----------------------------------------------------------------------------------------------------------------
Notes: Data are based on district or agency reports. ``New York City'' includes 32 districts across the city's
  five boroughs. The share of ELs among K-12 students was calculated by dividing EL enrollment by total K-12
  enrollment for all districts or agencies.
Source: U.S. Department of Education, National Center for Education Statistics, Common Core of Data (CCD),
  ``Local Education Agency (School District) Universe Survey,'' 2011-12 v. 1a; ``State Nonfiscal Public
  Elementary/Secondary Education Survey,'' 2011-12 v. 1a, http://nces.ed.gov/ccd/elsi/default.aspx.

    In order to get the results we all hope for--for every student to 
graduate high school prepared for college or career--we have to do more 
to support States in implementing the law. States will need the law 
clarified in many cases through regulation and they will need ongoing 
guidance and support in how to achieve improved results, including for 
ELs. My organization, MPI, has specific recommendations on how Federal 
regulations could help guide States and districts onto a path for 
success, and we stand ready to help States develop successful plans 
that meet their individual States contexts.
                    accountability for all students
    The focus of my remarks is on the need for effective implementation 
of provisions relating to ELs. But the bottom line is that the new, 
important EL policies I mentioned will not be effective if the overall 
accountability systems that States develop are not strong enough to 
ensure that schools are held accountable for the success of all 
children. The Department of Education should provide clarity through 
regulation that the clock cannot be turned back on progress for all 
kids. This country cannot go back to a time when the performance of 
subgroups of students was masked by high-performing students. It is my 
organization's hope that the regulations will be strong in this area.
              entry and exit criteria for english learners
    It is encouraging that ESSA is ushering in uniformity with regard 
to classification of students as ELs, and including English proficiency 
outcomes in States. ESSA requires States to have a standardized process 
for classifying students as English learners as well as a standardized 
statewide process for how ELs exit special services (or how they are 
reclassified). Up until now, many States have had a hodge-podge of EL 
entry-and-exit criteria across districts within a State, resulting in 
inconsistent assessment of needs and provision of services for 
students. Under ESSA, the entry and exit of ELs from services will be 
consistent at least within States, thus allowing educators to better 
serve students with high rates of mobility and making the definition of 
an English learner consistent across the State. However, States will 
need guidelines for the parameters of their definition; they will need 
support for how to develop criteria for entry and exit. Given the 
complexity of new assessments, they will also need regulations for the 
inclusion of English proficiency in overall accountability as it 
relates to entry and exit. This will be a policy challenge for all 
States, particularly for those that do not currently have a 
standardized statewide process.
                  english proficiency as an indicator
    This provision is an important example of where additional 
clarification and technical assistance are required from the Department 
of Education. Regulations that define parameters for how English 
proficiency will figure into a State's academic indicators should take 
into account the size of the English learner population in a particular 
State, growth in proficiency levels in the EL population and EL grade 
level distribution. Certainly clarity on how to measure progress in 
English proficiency versus measuring English proficiency itself should 
be embedded in these regulations. Fortunately, there is a body of 
research from which to define these parameters and examples from States 
on how to operationalize this knowledge. The Department should define 
parameters for ensuring that English proficiency outcomes are included 
in a manner that reflects analysis of existing data and best practice. 
Doing so is key to fulfilling the law's intent to include the full 
spectrum of English learners' performance in accountability.
                    progress on english proficiency
    The newly required inclusion of English proficiency outcomes in 
States' accountability systems is also encouraging. Yet States will 
need guidance regarding what ``making progress'' in developing English 
proficiency means. Requirements elsewhere in the law require reporting 
on EL students who have not reached proficiency within 5 years of their 
enrollment. Does that requirement signal that English proficiency 
should be reached within that timeframe and what increments should that 
reflect? How should grade level and level of English at entry be taken 
into account? The answers to these questions present a policy challenge 
to States without strong regulation from the Department of Education.
                        english learner subgroup
    The law now permits States to include in the EL subgroup former 
English Learner students up to 4 years after they have exited special 
language services. Including former English learners in the EL subgroup 
allows States and districts to present a more robust picture of how 
well their English learner students are progressing after meeting exit 
criteria. However by including former English learners, overall scores 
for the subgroup will rise and may mask the performance of current 
English learners. The Department should address this issue through the 
regulatory process, requiring States to carefully disaggregate and 
monitor achievement for current English learners and to address any 
downward trends in performance as soon as they are noted.
                parent, family and community engagement
    The Federal role in education has been critical to safeguarding the 
civil and educational rights of English learners, and it is important 
to ensure that gains under Federal law are not lost in State and local 
accountability plans. This will mean an increased need for broader and 
deeper dissemination of what research has yielded about this group of 
learners. It will also mean consultation with all stakeholders who 
count on this law to support an equitable and excellent education for 
all English learners.
    Parent and family engagement are provided for in this law. Our 
experience has most often been that in most States this engagement has 
been perfunctory and superficial. Regulations articulating specific 
examples of meaningful parent, family and community engagement in 
policy development should further the cause of equity for English 
learners and all children.
                       mpi implementation efforts
    While we think that there need to be regulations to clarify the law 
to increase the chances of successful implementation, we also know that 
regulations alone aren't enough--we all have to help States and 
districts succeed. Already at MPI, we have begun the process of 
supporting implementation of ESSA in a manner that engages diverse 
stakeholders along with educators. We began this effort by publishing a 
summary of English learner provisions in ESSA through a variety of 
networks. MPI is also working in coalition with other groups to address 
ESSA implementation. Along with community stakeholders, educators and 
other national groups, MPI is implementing a strategy in two parts. 
First, we have analyzed the law to understand new provisions. That 
process will continue through development of guidance and regulation, 
culminating in providing examples for States to consider as they 
implement particular provisions of the law. In response to great 
interest and some uncertainty about some provisions, we have scheduled 
presentations to State directors and school board members. We will 
continue our work assessing the size, distribution and characteristics 
of the EL population, as well as key subpopulations including long-term 
ELs and those with disabilities.
    The second stage of our work relies on partnerships with a variety 
of stakeholders in States. We will work with large coalitions of 
immigrant community groups to increase awareness of the new law and 
awareness of their right and responsibility to participate in shaping 
State policy. Leveraging MPI's expertise, strong dissemination 
capacities and ability to attract and work with a variety of 
stakeholders, we will be uniquely well-positioned to the development of 
policies for ELs that yield improved outcomes and support for their 
champions to ensure that responsive policies are adopted. Immigrant and 
community groups have a natural interest in education. Education has 
long been viewed as the most critical element of integration into U.S. 
economic and civic life by immigrants.
    As MPI moves forward helping States and districts implement ESSA, 
we share a commitment to smart regulation and guidance that allows for 
innovation and for local situations, but that also provides States with 
parameters built on the framework of equity set out in the original 
Elementary and Secondary Education Act. MPI looks forward to working 
with you, with the Department of Education and with the breadth of 
stakeholders who believe in the promise of our school system. Thank you 
for this opportunity to share our experience and our aspirations for 
all children.

    The Chairman. Thank you, Ms. Pompa, and thanks to all of 
you. It's been an excellent and diverse set of recommendations. 
Now, we'll begin a round of 5-minute questions.
    Governor Herbert, let's start with you. Over the weekend, 
the National Governors Association announced not only its 
national coalition to help with the implementation of the law 
but State-by-State coalitions. How will that work?
    Governor Herbert. It's based on the common sense idea that 
together we can get things done and separately we have some 
challenges. With laws that are put together by State or Federal 
law, it's too often that we get put in siloes and don't work 
together.
    I know we have a culture in Utah of collaboration and 
cooperation. In fact, the U.S. Chamber of Commerce recognized 
us as the No. 1 enterprising State and said the reason for that 
was our ability to cooperate and collaborate in Utah better 
than any place they've seen in America. That's the spirit we 
need to bring together to bring these coalitions together and 
make sure that we realize the promise of ESSA by making sure 
that all stakeholders are working together and pulling 
together.
    The Chairman. Thank you, Governor Herbert.
    Ms. Weingarten and Ms. Pringle, let me ask you both a 
question. Each of you as well as other witnesses talked about 
time. What we have before us is a rare opportunity in Federal 
education policy. We have a law that we would all agree is hard 
to do, hard to pass, and that means every State will need to 
submit a new plan within the next year or so for its title I 
and title II moneys.
    And the likelihood that, given the difficulty of passing 
the law, plus, I think, the general feeling that the law is 
well written and good policy--that, plus the fact that these 
plans don't have to be amended unless there are major changes 
in them later, we actually may be headed toward a period where 
we have real stability in Federal education policy, leaving 
States and classroom teachers and chief State school officers 
and others a chance not to worry so much about changes every 6 
months in Washington.
    One of the major changes has to do with teacher evaluation. 
You know from my background that I think, since I don't know 
how to pass a better parents law, that finding a way to fairly 
reward outstanding teaching is the holy grail of public school 
education. In Tennessee, we got involved with that early. But I 
did not believe when I got to Washington that we should tell 
everybody how to do it and make them do it from here.
    So we're going from a situation where Race to the Top and 
the conditional waivers had very prescribed mandates--not just 
to have teacher evaluation, but how to do it--to a situation 
where the Secretary is actually prohibited from doing that. 
Now, what's going to happen with the objective of teacher 
evaluation? What are the teachers unions going to do about the 
importance of finding fair ways to reward outstanding teaching? 
And how do you see the U.S. Department of Education's role? How 
has its role changed insofar as how States will go about that?
    Ms. Weingarten. We've actually given that a great deal of 
thought, so thank you for the question. I don't mean this to be 
in any way other than how I hope people take it. I'm a pretty 
simple kind of gal. I think about teacher evaluation, as do my 
leaders and members, in a very simple kind of way, which is: Do 
I or does a cohort of educators have the tools and conditions 
to do their job?
    And then the second two questions: Have you done your job? 
Have you taught the things that you have been asked to teach or 
that you believe is important to teach on a day-to-day basis, a 
week-to-week basis? And then the third question is: Have kids 
learned it? And if kids have not, then the question is why.
    I say it that way because we need to get back to something 
that's very accessible to both teachers and to parents in terms 
of what is within the teacher's scope of responsibility and has 
she done that, and have you done that, and have we done that on 
a school level and on a district level. That's what the 
opportunity here is to reset.
    We often talk about moving from----
    The Chairman. My time is about up. I want to give Ms. 
Pringle an opportunity. If you have anything----
    Ms. Weingarten [continuing]. It's moving from test and 
punish to support and improve, and I think that there's an 
opportunity to do that now throughout the country.
    The Chairman. Ms. Pringle.
    Ms. Pringle. Part of the beauty of this law is the 
requirement that we collaborate and that we not only listen to 
the voice of teachers but we include them in decisionmaking. 
Teacher evaluation could not be a better example.
    One of the challenges that we had with all of the mandates 
that you just described, Senator, is that the teacher 
evaluation systems were based--the premise of them--they were 
rooted in the test and punish. It was about getting rid of bad 
teachers or even rewarding good teachers instead of actually 
being rooted in students and student learning and student 
improvement. That's a completely different paradigm to approach 
it.
    When we talk about teacher evaluation, of course, we want 
to talk about indicators of teacher practice. We want to talk 
about how we have an evaluation system that informs our 
teachers so they can improve their professional practice.
    We also need to talk about indicators of teacher 
contribution and growth, not only to their students, but to the 
profession and to the school community, et cetera. And, of 
course, we need to talk about indicators and contributions to 
student learning and student growth. But we've got to root it 
in the idea that evaluation is about improving professional 
practice so that all students can learn. That's a very, very 
different paradigm.
    I will tell you--and I know the AFT has done this as well--
that we put together an accountability and evaluation task 
force that came up with recommendations on exactly how to do 
that and take a look at teacher evaluation from the perspective 
of the entire continuum, from pre-service all the way to what 
we hope will be advanced certification for all teachers.
    The Chairman. Thank you, Ms. Pringle.
    Senator Murray.
    Senator Murray. Thank you.
    Ms. Haycock, you mentioned in your testimony that in the 
past 14 years under No Child Left Behind we have seen the 
achievement gap narrow in both academic achievement and in high 
school graduation rates. Now, under the Every Student Succeeds 
Act, we're going to see a lot of the responsibilities of 
Federal Government under No Child Left Behind shift to our 
States.
    In your many years of experience working at the State and 
Federal level, what could be some of the unintended 
consequences of this shift without corresponding implementation 
of the strong Federal guardrails?
    Ms. Haycock. Thank you, Senator. I think it's clear from 
lots of experience that if we don't clearly enforce the 
guardrails that are in the law, you do one of two things. For 
leaders that are really trying to focus on equity, you take 
away the leverage that they need to do their work effectively. 
For leaders that are a little more recalcitrant, which, 
unfortunately, too many are, you take away all the pressure to 
do the right thing by kids.
    Fortunately, you put important guardrails in the law around 
a variety of things, but most specifically around 
accountability. And the best way to make sure that those 
guardrails actually provide the leverage that strong leaders 
need is to make sure of two things: one, that there is 
enforcement, that there's not just a wink and a nod in the 
Department of Education that said, ``Well, Congress didn't 
really mean that,'' because I think you did; and, second, for 
those of us on the ground to actually do the advocacy work, to 
actually participate meaningfully in developing coalitions and 
being at the table, and that's what we intend to do.
    Senator Murray. Dr. Evers, in sending so much new power to 
the States, I believe it's really critically important that a 
diverse group of stakeholders provide input and inform how 
States implement the law. I was glad to hear that you're 
planning to engage stakeholders, including civil rights leaders 
and parents, in the implementation process.
    I wanted to ask you specifically what steps will your 
organization take to engage these groups across all of our 
States, and how will you ensure that a wide range of 
stakeholders have meaningful input into the implementation of 
the law?
    Mr. Evers. Thank you so much for addressing that question. 
Something very important to me and important to our folks in 
Wisconsin, in particular, is that we need to have a broad 
group. Clearly, our teachers are really an important part of 
that. But, also I have to be frank with you. In my role as 
State superintendent, the opportunities to reach out to people 
that haven't been at the table--ESSA has really given us an 
opportunity to do that.
    We're already beginning that outreach process. We should 
have a group of folks together in the very near future, 
probably by spring or mid spring. So we feel that that's a step 
in the right direction, and it's also going to be giving us a 
chance to permanently engage people on a whole variety of 
issues that, frankly, have nothing to do with ESSA but are 
important to our State.
    The question you raised about other States is an 
outstanding question. But it's my observation that other States 
have good stakeholder involvement. Our organization meets 
regularly where we can share good practices, and this is one 
that we can share, and I feel confident that most States have 
that piece in place going forward.
    Frankly, I think some of the conversation here is around 
why States should be trusted. I understand that issue, and all 
I can say is NCLB had lots of issues related to it. But the 
best thing about it is for the first time ever, we took a look 
at subgroups, groups of young people that were failing and were 
covered up by the folks that were not failing or were not 
struggling. That was an embarrassment for all States.
    I can't imagine in my wildest dreams that any State that 
has engaged NCLB on this issue would suddenly back away from 
that. That seems illogical to me. I feel confident that States 
can be trusted on this. I can assure you that it is in our 
State. It's an important piece going forward.
    Senator Murray. I just have a few seconds left. Ms. 
Weingarten or Ms. Pringle, whoever grabs it first, how are we 
going to make sure that teachers' voices are heard during the 
implementation process? Are your organizations moving forward 
on that?
    Ms. Pringle. Yes, absolutely. As I said in my testimony, 
we're bringing in leaders from all over the country. One of the 
things that we are doing differently is we're listening as 
well, and we are creating the space and preparing for what I'll 
call the psychological preparation of our teachers to move 
forward and to lead. I think we've all been suffering from 
Stockholm syndrome. I really do. I think this is an opportunity 
that we're going to take, that we are taking, and we're 
stepping up.
    We are building cadres of people, but we're also building 
training for them in instructional practice and policy. We're 
pulling together groups of teacher leaders so that they can be 
prepared to take that leadership and to go beyond having their 
voice to actually creating solutions that work for our 
students.
    Senator Murray. Very good. I'm out of time.
    The Chairman. Thanks, Senator Murray.
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman, and I want to 
thank you and the Ranking Member, Senator Murray, for your 
leadership on this bill. You really have led a historic 
discussion about what the role of the Federal Government ought 
to be with respect to education, the role of State and local 
governments ought to be with respect to education, and I 
believe you've come out in the right place.
    For many years, in discussions around how to reform our 
education system, we've used a command and control approach, 
and we've set off--and that flexibility is something that has 
to be earned. Demonstrate results and we will give you 
flexibility.
    My view is that we ought to be doing exactly the opposite 
of that. We should be assuming flexibility, and where results 
are not delivered, we begin to take that flexibility away. We 
begin to impose interventions that are necessary, because let's 
be honest. Notwithstanding everything that we've done over the 
last 15 years, if you're a poor child living in America, you 
really don't have a shot at a good education. You don't. And 
the results are terrible for too many of our children living in 
poverty.
    Too many of them don't have access to high-quality or any 
early childhood education. Too many of them, the vast majority 
of them, I would contend, live in communities where the K-12 
schools are schools that not a single person on this panel 
would ever send their kids.
    And because college has gotten so expensive--for a variety 
of reasons--but because it's gotten so expensive that for 
people living in the bottom quartile of income earners, it 
costs them 85 percent of their net income, whereas for people 
in the top quartile, it's only 15 percent of their net income, 
it is not an overstatement to say that for too many of our 
children living in poverty, our system of education is actually 
reinforcing the income inequality we have rather than 
liberating people from it.
    I would trade everything, all the other policies we talk 
about, all the other government--what we do in our tax code, 
everything, if I knew that every poor kid in America had a shot 
at great early childhood education, had a shot at a K-12 school 
that I'd be proud to send my kids to--and I say that as the 
parent of three daughters that are in the Denver public 
schools--and had a shot to go to the best college they got into 
without bankrupting their family and without shackling 
themselves to a lifetime of having to pay debt.
    So we've made a decision here after this debate to change 
the roles of these governmental institutions. But that doesn't 
mean that we've solved the problem. Ms. Pringle said in her 
testimony that this is a moment about building the future of 
our students, not looking back at the past. I say amen to that, 
because what we know is the traditional approach to educating 
children living in poverty will not work for our children 
living in poverty.
    So my question for the panel--and I'm sorry to go on for so 
long, but we know it won't work. We know it won't work. So my 
question for the members of the panel is: As we move away from 
this compliance-driven approach, how do we assure that we take 
advantage of opportunities for change and innovation? How do we 
use this flexibility for the benefit of our children so that 15 
years from now, we're not sitting here saying we've dropped 
from first to 16th in college graduates, and now we're at 32nd? 
How do we say we've reclaimed the lead, and we know that, 
finally, America is living up to its promise to be the land of 
opportunity because we have seen kids, no matter what their 
circumstances are, have the right to a high-quality education?
    This is a civil rights law. It's the only reason for us to 
be in this business in the Federal Government. So, Governor, 
maybe we'll just start with you and work our way down the panel 
and see if anybody would like to respond.
    Governor Herbert. As you've waxed eloquently there, I can 
tell it's a complex issue, and, certainly, we need to have the 
desire and the goal to improve people's lives. I believe States 
are solving problems better at that State level and improving 
people's lives better than a one-size-fits-all approach that 
too often stymies our ability with Federal law.
    I'm better qualified to talk about Utah than all the other 
States, but I do recognize lifting people out of poverty is a 
key issue. I'm proud to say that in Utah, the child poverty 
rate is 13.3 percent where the national average is 27 percent. 
Our overall poverty rate in Utah is 10 percent. The national 
average is 15 percent. We're a third lower.
    We're making a significant effort to make sure that 
everybody has an opportunity for a good education. We've 
equalized funding so that no matter whether you're in the rural 
poverty areas of Utah or the urban better economic standing 
areas, you have the same opportunity to have an equal 
education. That really is the key to sustained economic 
growth--is education. We recognize that.
    I do find it puzzling that somehow we think that the 
Federal Government has got more concern about our students in 
our State than the local States and the teachers and the 
families and the parents. I don't think that's true. I think it 
is a team effort. We've got to work together in a collaborative 
fashion and see what we can do to have the goal to be No. 1, 
and let's work together to achieve that.
    The Chairman. Senator Bennet asked all of you the question, 
but he's run out of time. So you could respond in writing, or 
we might have time for a second round of questions.
    That's a great question. But I want to make sure the other 
Senators have a chance to ask their questions.
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thank you, Chairman.
    Ms. Weingarten, you, I think, asked the question of the 
day, which is what do we want to see from all of this effort. 
Certainly, what I want to see is curriculum expanded. It 
contracted because of the testing requirements, and the most 
impoverished schools ended up with the most impoverished 
curriculums, and we lost a lot of kids because the thing that 
they were passionate about wasn't on the curriculum any longer. 
That would be one.
    The second would be some serious middle school 
accountability. Those were the forgotten years, and this bill 
for the first time puts some focus there. And, finally, I'd 
like to see some real innovation take place. I know the 
innovation schools effort has run afoul of opponents who worked 
during the quiet of the reconciliation process between the 
House and the Senate bills to minimize that. But I think and I 
hope that we can, through the public process, try to 
reinvigorate that.
    There are two areas where innovation is key. One is where 
you have a failing school. And to me, a failing school is like 
a school on fire. You don't run the firefighting through a 
bureaucracy in Washington. You do what you need to do to get 
that school right, and you learn through our laboratories of 
democracy.
    And, second, you've got to be able to start innovation 
schools in our public school system. No school can now see a 
real capacity to do that if they have to get through the 
bureaucracy of their local school department and at the same 
time have to get through the bureaucracy of their State school 
department and at the same time have to get through the 
bureaucracy of the Federal education department.
    The idea that one little school can line those three things 
up has basically meant that the whole enterprise has been dead 
in the cradle, and I would really like to see that revived. So 
those are the three things that I think I'm looking for most in 
this.
    Ms. Weingarten, let me ask you--one of the ways we opened 
up curriculum was to take the pressure off some of the testing. 
One of the ways we took the pressure off the testing was to 
require that there be a dashboard of alternative measures. We 
live in a world of data. There's tons of data out there.
    What do you think are the best data points that can be used 
in the existing data stream that's out there to provide a good 
dashboard for whether an individual school is performing well 
or not without having to burden it with this insane testing 
regime we were under?
    Ms. Weingarten. I'd be happy to share what I held up, 
because the point in this piece of paper is to actually help 
school teachers and parents and people in communities take the 
words that a lot of us use and translate it into real life. 
There are a lot of these data points on this piece of paper, 
Senator Whitehouse, and I'd be happy to share it with you.
    [The information referenced above follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Weingarten. I'll give you one example. Take the issue 
of chronic absenteeism, and this goes to Senator Bennet's 
question, too. When you see persistent poverty, you may also 
see chronic absenteeism. That's a data point that now can be 
used in the new accountability guardrails, but wasn't used 
before. That raises a lot of issues in terms of what can we do 
for kids who are chronically absent.
    First, we have to get them in school. But if we don't have 
that chronic absenteeism as a data point, then how are we going 
to get the services to get them back in school? It also goes to 
how are we going to get the social-emotional services that will 
help kids be ready to learn? So that's one example.
    Another example is the issues around resilience and 
engagement. I'm a big believer in career tech-ed, project-based 
instruction, because of the engagement. If we can get kids into 
schools and want to be in schools and want to be in either art 
or music or a project, that's half the battle. And then 
resilience is also important and trying to figure out data 
points around resilience, because all of us fall down. How do 
we help kids get up?
    So we're looking at strategies that can be replicated, 
because the bottom line is that what has happened in schooling 
in the last 20 years--there's been some incredibly good 
examples. But we don't know how to sustain, and we don't know 
how to replicate.
    Senator Whitehouse. In my last 10 seconds, I'll jump in and 
ask Dr. Schuler--if you have specific examples of unnecessary, 
redundant, uncoordinated information that's being sought, 
please let us know. I think the Department of Education needs 
to take a clear message from this bill that they need to align 
what they're doing much, much better with what's happening 
locally and become less of a stifling effect and more of an 
invigorating one. I think that's a bipartisan sentiment here. 
Let us know examples, and we will be your advocates.
    The Chairman. Thank you, Senator Whitehouse.
    Senator Cassidy has suggested we go on to Senator Baldwin 
and then he'll go after that.
    Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman.
    One thing that we know that No Child Left Behind got wrong 
was its one-size-fits-all intervention scheme. It prescribed 
federally determined interventions for all schools that didn't 
move the needle for children who are struggling.
    I was proud as a part of our committee and floor process to 
support a new focus on resource equity in ESSA. Specifically, 
under the new law, school districts will need to work with both 
comprehensive improvement and target support schools in order 
to more equitably allocate funding, outstanding teachers, and 
other very, very important resources.
    I want to direct this question to Becky Pringle and Randi 
Weingarten. I want to ask you, from your perspective, how 
urgent is the issue of resource equity, and what, in your mind, 
can be done to see that these provisions are implemented 
effectively over the months to come?
    Ms. Pringle. Senator Baldwin, thank you for that question. 
We talked a lot about the opportunity dashboard as ESSA was 
being reauthorized, and we identified resource equity issues 
from having a counselor to help shepherd a student through the 
application to college and financial aid to having access to AP 
courses, to science and math, to arts and music. And we talk a 
lot about that resource equity.
    But, the reality is when you visit schools--and I just came 
from Patterson, NJ, where we did a walk-in there to talk about 
the schools our students deserve. And I had an escort, a little 
fifth grader, who took me around the school, and he's very 
proud. But he told us as we were walking--he said, ``You know, 
I don't go to the bathroom anymore, because it's too filthy, 
and I don't feel safe there.'' Now, when you have a student who 
doesn't have safe bathrooms to go to, we're talking about 
Maslow's hierarchy of needs here, I mean, basic things.
    As I go to schools and visit schools where they have a bank 
of computers sitting in the back because they're 10 years old, 
that's a resource equity issue, and that's what we are so 
hopeful about with ESSA, that we've created this dashboard to 
actually hold schools accountable for addressing those real 
issues for real kids. So the resource equity issue is 
absolutely essential. And when we talk about serious 
accountability, that must be a part of everything we do for our 
kids.
    And one more thing to Senator Bennet's question. We talk a 
lot about poverty and the impact on our schools. I need and 
want the Senators to think about racial justice in education. 
Far too many of the kids that don't have bathrooms they can go 
to look like me. We need to address that issue. We need to take 
it head-on, and we need to redouble a commitment to addressing 
the fact that too many of our kids who look like me go to 
schools that don't have a physics teacher or a computer. We 
need to address that.
    Ms. Weingarten. I want to build on what Becky said. At the 
end of the day, the districts around Detroit would not have the 
mold and the black mold and a technology school that doesn't 
have the Internet, and the suburban districts would never have 
that, and that's part of what resource equity is. That's part 
of what LBJ thought about when he first pushed the ESEA in the 
first place. So we need to make it real.
    But I want to go to the next step of the hierarchy of 
needs, to something that I think Kati and others were getting 
at before, which is the most important thing we can do, I 
think, in terms of the intervention strategies and using 
resource equity is how do we turn around schools that are 
struggling. How do we get great teachers to go and to stay? 
That's part of resource equity, too.
    Take teacher residencies, which tend to be some of the best 
things we can do right now. How do we get the money to actually 
have teacher residencies and for teachers to actually stay in 
schools of need? That's part of what resource equity is.
    Senator Baldwin. I note that I've come to the end of my 
time. I had a second question that I'll submit for the record 
unless we get a second rotation.
    The Chairman. Thank you, Senator Baldwin.
    Senator Cassidy has deferred to Senator Franken.

                      Statement of Senator Franken

    Senator Franken. I thank my friend from Louisiana.
    I visited a number of schools in Minnesota that have done a 
really good job partnering with community-based mental health 
providers to expand students' access to mental health services. 
And after these visits and after talking with experts about 
mental health needs of students, I introduced my Mental Health 
in Schools Act, and I'm pleased that we incorporated many of 
its provisions into ESSA.
    My provisions will allow schools to work with community-
based organizations and mental health providers to get students 
mental health screening, treatment, and referral services. This 
is my question to anybody and everybody. As States begin to 
develop their plans to comply with the new law, can you talk 
about any strategies you've developed to help States expand 
mental health services for students, for kids?
    Anybody?
    Mr. Evers. Thank you, Senator, for that question. Mental 
health is a huge issue in our State and across the Nation, 
mental health of young folks. And, luckily, at the State level, 
we've just passed a law to make it easier for mental health 
professionals to actually go to schools and provide services 
there.
    The question you raise, though, is really, I think, 
directed exactly to where ESSA is, and that's identifying 
schools and kids that are struggling and providing local 
solutions for that. It kind of gets at the whole community 
schools opportunity, where we start to address mental health 
issues with people onsite, where we're able to provide dental 
health issues onsite, where we bring in community activists who 
really help the school connect with the community.
    I think mental health is a major reason for the community 
schools movement, and I believe as we work with our schools 
that are struggling, those sorts of services will be at the 
crux of it, because, yes, we want people to do well on tests, 
but, frankly, the issues that struggling kids have are probably 
not in that arena. It's in the arena of their health and making 
sure that they're socially and emotionally competent, and 
community schools can make that happen.
    Senator Franken. I know that in the schools I visited, when 
you had the mental health provider in the school, it made a 
huge difference, and, actually, in some of the schools I went 
to, I heard that kids would high-five their therapist in the 
hall. It reduces stigma and it helps the teachers.
    Let me move on to the way we do testing. I think what we 
did was we understood that the high-stakes, mandated testing, 
one-size-fits-all, didn't work. I like annual testing because I 
think you get to measure growth. But we did not mandate growth 
in this as a measurement. I think proficiency is a very bad--I 
thought we discovered that was not--that didn't work, and it 
was a lot because teachers would focus on the kids just above 
and just below proficiency to get their numbers up. How are we 
going to approach testing, not having redundant testing?
    I'm going to go to Dr. Evers again, because you're the 
State guy. How are you going to reduce unnecessary testing, but 
also approach this central issue?
    Mr. Evers. First of all, in the State of Wisconsin, growth 
is part of our accountability system, and it's in State law, 
and we will continue to emphasize growth as you mentioned.
    Senator Franken. Is that something you did during the 
waivers?
    Mr. Evers. No, we've done that all along.
    Senator Franken. Oh, OK.
    Mr. Evers. Right from the get-go. But the issue about 
testing--I'm a supporter of annual standardized tests. I think 
they have value. But we have gotten to a place--and I know I 
can't get through this in 18 seconds--but a place where we've--
--
    Senator Franken. I just have to get done by my time. You 
can take----
    [Laughter.]
    Mr. Evers. OK. Well, let me----
    Senator Franken. You can try the chairman's patience all 
you like.
    Mr. Evers. We oversold what standardized testing is. Quite 
simply, what it is is it provides a snapshot of 1 day at a 
computer or working on a test, and it provides information to 
parents and teachers for that point in time. It gives the State 
and the Federal Government information about growth.
    But, to me, a lot of the standardized testing preparation 
should never be done. What is going to be measured on a 
standardized test is what teachers do every single day in the 
classroom. And the idea of prepping for standardized testing is 
a huge issue, and we can move away from that if we start to 
understand the limited use of standardized tests. But it also 
has gain, and I appreciate our friends from the teaching 
profession on this. But we need to look at other tests that are 
done locally and provide guidance and thought around that.
    I have to believe that there is some over-testing in that 
area. I'm not bailing out on our end of it, the State end. But 
we need to take a good look at that. At the end of the day, the 
issue likely is more about how those tests results are used 
rather than the amount of testing.
    For the State of Wisconsin, it's three--about the maximum 
of 3 hours per year on standardized tests for any grade level 
that's being tested. I think that's reasonable. But the 
ongoing, day-to-day testing in our schools just needs to be 
looked at.
    Senator Franken. Thank you.
    I'm sorry, Mr. Chairman, for giving the witness permission 
to try your patience.
    [Laughter.]
    The Chairman. It's all right, Senator Franken. Thank you 
for the good questions.
    Senator Cassidy.

                      Statement of Senator Cassidy

    Senator Cassidy. Franken said he had to go before me 
because he had a time constraint, but then he's begging people 
to stay longer.
    [Laughter.]
    Senator Cassidy. Let me first direct this question to Dr. 
Schuler and Dr. Evers and Governor Herbert, just because you 
all are the ones who actually would implement such policies. 
One thing I'm concerned about--about 20 percent of our 
children, statistically, have dyslexia. But very few places 
actually screen for dyslexia. Do any of the three entities 
which you are in charge of screen children for dyslexia?
    Mr. Evers. We do not in the State of Wisconsin. Certainly, 
dyslexia is an issue that is of great importance to many 
parents, as you mentioned, 20 percent, but there's no State 
requirements on that. But I can tell you that within our local 
school districts, there is screening of that happening. It just 
doesn't happen as a mandate from the State level.
    Senator Cassidy. I think I saw by head nods that neither 
the Governor nor you, sir, do so.
    Governor Herbert. Actually, we have nurses in the schools 
and they test--now, whether it's specifically for dyslexia, I 
can't comment on that. I don't have the information. But I know 
that we do have a significant health responsibility for our 
young people coming into the school, that they're tested, and 
we have nurses in the schools.
    Senator Cassidy. So one of my concerns is dyslexia. There's 
a good peer-reviewed article in the Journal of Pediatrics that 
it's detectable at grade one, and if not remediated, it will 
continue to go. So now we're going to have standardized 
testing, but it doesn't respect that--if you're not--and I can 
promise you most are not--a few are--screening for dyslexia, we 
have program failure.
    Ma'am, you spoke of the civil rights aspect of education. 
Only one of five children of color actually read at grade 
level. So one of my concerns--and if you look at prisoners, 48 
percent of them are dyslexic. With all this context, I'll now 
get to kind of my queries.
    My concern is that if we have special curriculum that works 
for children with dyslexia, and we're not screening, and, 
therefore, they're not receiving that curriculum, then we 
basically have program failure for 20 percent of the children, 
which disproportionately affects those impoverished, whether 
they are of color or not. Whatever the standardized testing, 
unless we allow you to carve out some sort of way to address 
that, we have program failure.
    For those with authority in this decisionmaking process, is 
that logic good, or is that logic faulty?
    Mr. Evers. Again, I think that's a good comment. I don't 
think the argument is faulty. My hope is that we spent a lot of 
professional development time in our State, especially for 
early educators, on the issue of dyslexia.
    Senator Cassidy. I accept that. But if there's a 20 percent 
prevalence, and unless you can tell me, ``No, we have 20 
percent of our children or maybe 15 percent of our children, 
even 10 percent of our children in that sort of science-based 
curriculum,'' then I'll think that whatever--no offence, 
because I suspect you're pretty avant-garde--that whatever 
you've done for your early education, in reality, it's 
inadequate, again, unless you're telling me that at least 10 
percent of your children are under specialized curriculum.
    One of my concerns about this legislation is that we don't 
allow this. And by the way, it disproportionately affects 
children in poverty.
    Let me ask this. If you have a specialized school, which 
is, say, a dyslexic school--my wife is involved with one, full 
disclosure--I'm sitting here thinking, well, you have a school 
which is specialized in the management of this issue, but you 
can pick another for which there's a science-based curriculum. 
You really are discriminating against them because you're 
concentrating those at greatest risk for not performing well.
    I say that, again, because as I read the law, this kind of 
comes out to me. Does that logic seem good?
    Mr. Evers. Is your question about a specialized school for 
kids with dyslexia?
    Senator Cassidy. Right. You're concentrating those who are 
most likely to fail. But by the way, if all you did is take 
those children who culturally have been less exposed to 
reading--say, children who grow up in an urban poor environment 
or a rural poor environment--and you have a school for them, 
you've got program failure there, because the amount of words 
they are exposed to growing up is far less than, say, one of 
your children. And it's been shown that the fewer words you're 
exposed to, the less skilled you are in language arts.
    Again, my concern is that we almost are selecting how we 
aggregate children for failure in these language arts tests. As 
I'm thinking through this--you all are experts. Do you dispute 
that characterization, or is that a fair characterization?
    Governor Herbert. Let me try--I'm certainly no expert in 
this issue at all. But I know as a Governor our needs for 
education is to make sure that every student does succeed. I 
expect there's a number of learning disabilities of which 
dyslexia is just one. It's one you're highlighting, and it's 
one that we ought to probably pay rapt attention to.
    But we have autism. We have people with disabilities in 
many different ways, some mental health issues that would make 
it difficult for our children to concentrate and to study. So 
all those young people should be addressed and see what we can 
do to put them on a pathway to success.
    I actually think our local school districts, with the help 
of our State school boards and the leadership of our 
superintendents and principals, can find ways to address those 
unique circumstances. They may be a concentration in one area 
and not in another area. Again, one-size-fits-all is not the 
solution, but I think a realization of the challenge that's 
there with learning disabilities ought to be addressed, 
starting at that local level, with the help of parents and 
guardians that can help bring that to the attention of those 
who are going to be teaching in the schools.
    Senator Cassidy. Governor, we're over time. I totally agree 
with you. As I yield back, I will add that I totally agree with 
you, and that's one of the things I'm concerned about. The law 
capping at 1 percent the number of children who can take a test 
particular for their disability, I, frankly, think is a flaw in 
the law. So we would like--but I don't think the law is going 
to give that local school board that which you just said they 
should have.
    Governor Herbert. I don't know why it would stop us from 
doing it, frankly. I don't know why we cannot evaluate our own 
students at that local level in the States and say, we have 
issues here with autism. We have special training for our 
teachers and for schools to help with autistic children. I 
don't know why we can't do that with dyslexia.
    Senator Cassidy. The law doesn't allow that. So I yield.
    The Chairman. Thank you, Senator Cassidy.
    If others have responses to that, we'd welcome your 
comments in writing or later.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman.
    The new education law gives States a lot more flexibility 
in determining how to educate our kids while it also 
establishes a Federal baseline to ensure that the States 
actually use Federal dollars to support teachers and students 
who most need those resources. I think that one of the most 
important safeguards in this new law is a bipartisan provision 
that Senator Gardner and I wrote that requires the States to 
report better data about how their kids are doing.
    For the first time, we have a provision that will give 
parents, teachers, and researchers across the country the 
ability to document performance of specific groups of students 
and the interaction of various factors, like race, gender, 
disability. And with better data, I hope this means we can 
figure out what's working and we can figure out what's not 
working.
    Dr. Evers, in your testimony, you discussed your task 
force's work to close the achievement gaps in Wisconsin. Can 
you talk just briefly about why having good data is important 
for work like this?
    Mr. Evers. Absolutely, it's important for work like this. 
Our Promoting Excellence for All task force--I'm task force 
adverse, so having a task force was quite an extraordinary 
thing for me. But we did it right. We brought in teachers and 
principals, and nobody from 30,000 feet were allowed in the 
room. It came up with some great ideas.
    But you're right. The idea--and I thank you for the efforts 
around cross-tabulation of data. In fact, we were just working 
on it the other day in our State, talking about kids of color 
and cross-tabulation with students with disabilities. The trend 
line was not good, to be honest with you. We have cross-
tabulation information on our public portal. What we don't have 
is military kids and foster kids. We have great relationships 
with our State military kids association, and we will 
absolutely get that.
    But there are students that are many times forgotten, and 
in our State, it's primarily not regular Army. It's primarily 
National Guard, and so people think what's the big deal there. 
Well, if you've got mom or dad going away for 9 months and then 
coming home for a week or two and then be redeployed someplace 
else for another 9 months, that causes extreme pressure on 
those kids.
    So having those kids part of our accountability system and 
requiring the ability for anyone to cross-tabulate that 
information really, as you said, is going to give us much more 
worthwhile data, and it's not difficult to do. It's not a 
requirement that people are going to say, ``Oh, my God. How are 
we going to do this?'' It's already there. So I thank you for 
that.
    Senator Warren. Good. Thank you very much. States and local 
communities can't address persistent achievement gaps if they 
don't have good data about what's gone wrong. If we want better 
outcomes, we need better data to figure out where we're failing 
to reach our students and where we're succeeding, and then make 
the changes so that all of our students have better 
opportunities.
    We need good data, but we also need accountability around 
this. The Federal Government provides billions of dollars every 
year to the States, and for our investment to be meaningful, 
that money must be used to improve education. And that's why we 
fought to ensure that Federal education dollars come with clear 
expectations for how the States will use that money. The new 
education law specifically directs the Department of Education 
to issue rules and regulations to clarify expectations for 
States that receive billions of dollars in aid.
    Ms. Pompa, what is the Department of Education's role in 
ensuring that the safeguards in this law are actually enforced?
    Ms. Pompa. May I preface that by saying that 34 years ago, 
as a very young director in a school district, I testified 
before this committee. And as I reviewed that testimony, one 
paragraph jumped out at me, because I could use it again today. 
It talked about and cautioned against pitting local control 
against equity.
    Senator Warren. Yes.
    Ms. Pompa. Your question really ties back to that, and 
that's the struggle, that we have a great belief in innovation 
and what school districts can do, but we also have a long 
history of needing protection for special groups of kids and 
how they are treated within our school system. The Federal 
Government has played that role for those groups of children 
since the beginning of ESEA, and it's important that they have 
the ability to continue playing that role.
    I'll give you one example that jumps out for English 
language learners this year. The committee in its wisdom passed 
this great provision in the law that requires States to include 
English proficiency in the accountability system.
    The issue, though, is that States vary from having 25 
percent of their population being English learners to maybe 
half of a percent in another State. States clearly need 
guidelines as to what those guardrails and parameters are, and 
that's the role the Department of Education can play, not to 
dictate, but to provide those guardrails, to provide examples, 
and to provide guidance to States.
    Senator Warren. Thank you very much, Ms. Pompa. Democrats 
in Congress along with the President fought hard to ensure that 
the new law includes real accountability, and the Department of 
Education has clear authority to issue rules and regulations to 
strengthen, not weaken, that accountability. Congress entrusted 
this responsibility to the Department to make sure that when 
the States receive billions of taxpayer dollars to improve 
education for our most vulnerable kids that those States 
actually use that money for our most vulnerable kids, and we'll 
be watching to make sure that that happens.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    Senator Murray, do you have any closing comments?
    Senator Murray. I just really want to thank you for holding 
this hearing and thank all of our witnesses again for taking 
the time to be with us today. I was really proud last year that 
Democrats and Republicans did work together to break through 
the partisan gridlock here and succeed in passing this 
legislation, and we did it through collaboration.
    Senator Alexander, you've mentioned several times that we 
need to continue that collaboration as this law is implemented, 
and I totally agree. I believe we need a wide range of 
stakeholders, including advocacy organizations that give voice 
to students, like our civil rights groups, that should have a 
voice at the table, which will be very key in making sure that 
the Every Student Succeeds Act works for students and parents 
and teachers and communities and all of our kids.
    I think it's been mentioned several times that this is a 
civil rights law, and I think it is important to all of us to 
uphold the legacy of that and promise for our students, 
including all of the groups represented here today. I encourage 
all of us to stay involved and to make sure this works as 
intended.
    Thank you very much.
    The Chairman. Thank you, Senator Murray, and I agree with 
you. You'll notice a diversity of views at this hearing, and we 
try to have bipartisan hearings. That means we agree on who the 
witnesses are. That wasn't regularly done before, but I think 
that's part of why we were able to succeed, because this is--as 
I said often during this debate, this is like going to the 
University of Tennessee football game with 102,000 people in 
the stands and every one of them has played football, and they 
know which play to call next, and they usually do. And everyone 
has an opinion on education, so you can imagine the difficulty 
of reauthorizing Elementary and Secondary Education.
    I have two questions, and then we'll conclude.
    Mr. Evers, I believe Wisconsin adopted the Common Core 
academic standards in 2010. Is that right?
    Mr. Evers. That's correct.
    The Chairman. These are my words, but the combination of 
Race to the Top and the conditional waivers encouraged many 
States to adopt Common Core and, some say, in effect, mandated 
it.
    The new law has a different definition for academic 
standards. It said you have to have challenging academic 
standards that are aligned with entrance requirements for 
credit-bearing course work in your system of public higher 
education in your State. But then it strictly prohibits the 
Secretary and peer reviewers from reviewing the content of 
those standards. The Secretary can't require a State to add or 
delete standards or to interfere with them. There is an 
explicit prohibition on any Federal approval or certification 
of standards, and it says no officer or employee of the Federal 
Government can mandate, control, direct, or incentivize a grant 
to encourage the adoption of the Common Core standards.
    Does that mean to you, as you look at the law, that if you 
want to have the Common Core standards that you can, that if 
you don't want to have them that you don't have to, that if you 
want 80 percent of them that you can, that if you want 20 
percent of them that you can? Do you believe that it's 
Wisconsin's decision what its challenging academic standards 
are as long as they are aligned with your public higher 
education system entrance requirements?
    Mr. Evers. Yes, absolutely, I agree with that concept that 
districts now are free to modify, change, whatever. Our State 
has adopted the Common Core. But I have to tell you in State 
law, that decision is made locally. So our districts have come 
behind the Common Core standards, and we're implementing them 
with good fidelity, and I think that'll make a difference in 
the lives of kids. We never felt there was pressure from DC to 
do it. We felt it was the right thing to do.
    The Chairman. My last question really is about schedule. I 
mentioned earlier that the opportunity we have, in addition to 
this collaboration that we see here--and we'll be seeing State 
by State in general agreement that the new law seems to be 
pretty good policy, maybe very good policy. We have a chance 
for a reset, which was the word Ms. Weingarten used.
    Both you and Ms. Pringle said you need time to do that 
right, and I agree with that, particularly because the law is 
so hard to change that this law--and because it's good--is 
likely to be the law for a while. And because every State will 
have to submit new plans to get its title I and title II 
money--and those are likely to be the plans for a while, unless 
a State decides to make major changes--we're likely to have a 
period of stability in Federal elementary and secondary 
education policy.
    How much time is enough time to get it right is the 
question. Dr. King will be in here Thursday for his 
confirmation hearing, and I'll be asking him this question. One 
of you said that the regulations should be done by this fall. 
Was that Dr. Schuler or Dr. Evers? I think that's the schedule 
the Department is on.
    If the regulations are done by the fall, the State can 
perhaps get its plans in by next spring or summer. Is that 
practical? And, if so, would it apply to year 2017 or 2018? Is 
that a realistic schedule? What would you like for me to say to 
Dr. King about that? To any of you, is that too fast, or is 
that about right? What is a realistic schedule to get it right 
and to allow this collaboration to produce a result that will 
produce the stability that I think all of us would like to see?
    Mr. Evers. I'll just quickly say that you are right about 
stability. I think that's really important. Yes, I believe the 
July, June, 2017 is adequate time to put together a good plan. 
But we have to take it seriously, and in our State, we already 
have had hearings on this, and we believe that by bringing 
together a wide variety of people this spring, we will be able 
to pull this off by the timeline. I don't think there's any 
problem with that.
    But I think it goes beyond getting that plan in. I think 
it's also--others talked about the need to reset the mindset 
and so on and so forth. I think that's great. But that's going 
to be part and parcel of our conversation going forward, even 
after the plan is submitted.
    The Chairman. Ms. Weingarten and Ms. Pringle, what do you 
think?
    Ms. Weingarten. There's an 18 month process that's already 
defined in the law. But my point is that every State will do an 
initial new accountability system. But if we actually want to 
get to the goals of helping all kids reach their God-given 
potential and doing it in a way that's not been done before, 
then there's a lot of opportunity in this law to focus on ELLs, 
to focus on schools that are struggling, to focus on how we 
build capacity, how we think about multiple pathways of 
learning.
    What my concern is is that the States will tinker with what 
they have right now and then put those plans in place, as 
opposed to doing the process of really redefining what 
constitutes real student learning and how to get there.
    The Chairman. But it is true that most States, almost every 
State, have over the last 10 or 15 years been working on new 
challenging standards, have been deciding which tests to use to 
the extent they were free to do that, and even new 
accountability systems. So it's not as if they were starting 
from scratch.
    Ms. Weingarten. But what I'm starting to see in State after 
State is--take New York, for example. They're actually thinking 
about how to look at their standards through the lens of what 
individual children need and to refocus it.
    There's a real appetite for a reset in terms of what 
constitutes the learning that kids need to know and be able to 
do in the 21st Century to, yes, be college- and career-ready, 
but be ready for life and to be ready for productive 
citizenship.
    The Chairman. So you're saying even if you've got a new 
accountability system, don't just slap it in the box, but take 
advantage of this unusual opportunity to rethink everything.
    Ms. Weingarten. Absolutely.
    The Chairman. Ms. Pringle.
    Ms. Pringle. Senator Alexander, that's a hard question to 
answer for this reason. As Randi said, we do have the timeline, 
the 18 month timeline, in place. And I will say that as the 
grandparent of a child who only has 1 year in kindergarten, 
there is a sense of urgency for our students, especially our 
students of greatest need.
    But I'm going to invoke Jim Collins, I think it is, that we 
have to go slow to go fast, and we have to think--it's when we 
try to answer questions with a one-size-fits-all. That's when 
we get into trouble, and we do have that in the law.
    But, I visited Governor Herbert's State, and they are so 
much further along in terms of the collaboration that he and 
our local affiliate president have led on that I would say 
they'll be more ready. I just came back from Oregon, and they 
are collaborating with the State department and with the 
Governor on assessments and how they can redo their 
accountability system. They are more ready.
    There are States that are way behind that because they have 
not come together. They've not had those tough conversations 
yet. So they're not as ready. And even though we have that 
timeline in place, if the Federal Government doesn't allow 
those who are further behind, the flexibility to take the time 
to get it right, then they will tinker around the edges, and 
they'll overlay on what's already there, and that will do 
nothing to change anything for our kids.
    The Chairman. Thank you.
    Let me ask Dr. Schuler, Ms. Haycock, and Ms. Pompa if they 
have any comment, and then I'll let Governor Herbert have the 
last word.
    Mr. Schuler. Senator Alexander, I think one of the things 
that's most critical is not necessarily the timeline itself but 
how we are ensuring that every regulation is being viewed in 
the context of a rural school, a suburban school, an urban 
setting, different transient levels of students coming in and 
out, and the different student demographics. I think we felt so 
forced into this one size will work everywhere that the 
question I would ask is how are we going to ensure that the 
regulations are viewed through the lens of the different 
schools and school districts in our country.
    The Chairman. Ms. Haycock.
    Ms. Haycock. Yes, Mr. Chairman. My experience in education 
suggests that things take as long as you give them, and if we 
give them more time, they will take that long, even when they 
don't need to. I really do think we need to think about this in 
two ways. First, the initial time that States have, which is 
roughly 18 months, is, in fact, adequate time to do the 
consulting, to learn from the high performers, the fast 
gainers, that we need to do, to involve the range of 
stakeholders who need to be a part, and to get going on a new 
system.
    That said, I don't think those initial decisions have to 
necessarily not be evolved over time. I think one of the things 
we've learned in the best accountability systems, especially 
the work we see at the district level, is that as people learn 
more about what indicators are helpful in working on 
improvement, those can be added later on. All that would take, 
as you've pointed out, is coming back to the Department and 
showing the data and moving forward. It's not an elaborate 
process, and so I don't think we need to get it perfect the 
first time.
    The Chairman. Thank you.
    Ms. Pompa.
    Ms. Pompa. My colleagues here today have all talked about 
the importance of coalitions, and as we look at that 18 month 
period, one of the steps that States have to take is to start 
now engaging people in those coalitions, because it is going to 
be a very different process if we do it right this time. We 
also have a large research base that we hadn't had before to 
look at many of the processes that are called for in the law. I 
would hope that the States in their 18 months will start early, 
look at the research, and include everybody in a meaningful 
way.
    The Chairman. Thank you.
    Governor Herbert.
    Governor Herbert. Mr. Chairman, thank you again. I think on 
behalf of all the panel, we thank you for convening us together 
to talk about this very important milestone in education for 
this Nation. And the devolution of power back to the States, 
with accountability, I think is a very positive thing.
    I think what Ms. Pringle said is accurate. I'm not a one-
size-fits-all guy, and we have unique strengths and weaknesses 
in all of the States. So where Utah is, maybe Texas is not, or 
vice versa. I certainly believe that we ought to get it right 
rather than get it quick. But I also think we need to get it 
right and be timely. I think we sometimes make the work to 
expand to the time allotted, and I think that's a concern, that 
we'll take too much time.
    But one of the principles that I mentioned in my testimony 
from the National Governors Association, speaking on behalf of 
the States and our local educators and stakeholders, is we need 
to have some flexibility. We won't all do it the same way in 
the same timeframe. But we can all do it, and it really is a 
matter of bringing the stakeholders together.
    We have a leg up. We've been working together for a number 
of years in trying to bring all stakeholders together, to make 
sure that our elected State school board, who directs the 
standards for Utah, and our local elected school boards, who 
direct the curriculum for Utah, are in concert with principals, 
teachers, and superintendents. We can as a team get it right.
    At the end of the day, we need to remember we're all on the 
same team. We sometimes forget that. These siloes, Federal 
versus State, State versus local--we're all on the same team, 
trying to provide an educational environment that lifts and 
elevates all of our students, so they have not only educational 
achievement but the ability to live and participate in the 
American dream, to be able to have economic prosperity.
    This really is the heart and soul of the American dream 
here, and I thank you for leading it out with this ESSA, or 
ESSA, as we may start calling it. Thank you very much.
    The Chairman. Thank you, Governor, and thanks to each one 
of you. In our year of hearings and discussions, often Senators 
would come up with a very good idea about education, and 
sometimes I would say, ``Well, there are 50 States. There are 
50 million children and 3.5 million teachers and 100,000 public 
schools. So let's think twice about whether we impose that good 
idea on every single one of them.''
    I think all of us want to create an environment in which 
every child can succeed. I hope that we're on that track. Many 
people said that the passage of this legislation, which was 
difficult, was really a textbook example of how to resolve a 
lot of different points of view and still come to a result 
moving in a good direction. I think this implementation is 
starting out that way. I don't remember anything quite like 
this in my experience in education, which goes back a good 
ways.
    So this committee will be holding probably another five 
hearings this year, two more like this, with those of you who 
are out working in coalitions in States and in classrooms and 
advocating, doing different things; three with the U.S. 
Department of Education so we can know what they're doing and 
see if the law is being implemented the way we wrote the bill. 
And we hope we get to the end of the year and we've got a 
textbook example of implementation as well as legislation.
    There's a lot of talk about dysfunction in Washington. We 
think this is an example of Washington working very well to 
create an environment in which parents, Governors, teachers, 
advocates, and others who care about children can help them 
succeed. And we're going to make sure that that happens if we 
possibly can.
    The hearing record will remain open for 10 days. Members 
may submit additional information for the record within that 
time if they would like. I would specifically invite each of 
you to let us know any time if you have ideas, suggestions, or 
concerns about implementation. That's why we want this 
relationship. Thank you for being here.
    Our next hearing of this committee will occur Thursday at 2 
p.m. on the nomination of Dr. John King to serve as Secretary 
of Education. We'll be asking him many of the same questions 
that we asked you.
    The committee will stand adjourned.
    [Whereupon, at 12:11 p.m., the hearing was adjourned.]

                                   

      
</pre></body></html>
